<html>
<title> - THE RECONSTRUCTION OF AFGHANISTAN: AN UPDATE</title>
<body><pre>[Senate Hearing 108-37]
[From the U.S. Government Printing Office]



                                                         S. Hrg. 108-37

                   THE RECONSTRUCTION OF AFGHANISTAN:
                               AN UPDATE

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                            FEBRUARY 12, 2003

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate



87-575              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                     COMMITTEE ON FOREIGN RELATIONS

                  RICHARD G. LUGAR, Indiana, Chairman
CHUCK HAGEL, Nebraska                JOSEPH R. BIDEN, Jr., Delaware
LINCOLN CHAFEE, Rhode Island         PAUL S. SARBANES, Maryland
GEORGE ALLEN, Virginia               CHRISTOPHER J. DODD, Connecticut
SAM BROWNBACK, Kansas                JOHN F. KERRY, Massachusetts
MICHAEL B. ENZI, Wyoming             RUSSELL D. FEINGOLD, Wisconsin
GEORGE V. VOINOVICH, Ohio            BARBARA BOXER, California
LAMAR ALEXANDER, Tennessee           BILL NELSON, Florida
NORM COLEMAN, Minnesota              JOHN D. ROCKEFELLER IV, West 
JOHN E. SUNUNU, New Hampshire            Virginia
                                     JON S. CORZINE, New Jersey

                 Kenneth A. Myers, Jr., Staff Director
              Antony J. Blinken, Democratic Staff Director

                                  (ii)

  


                            C O N T E N T S

                              ----------                              
                                                                   Page

Biden, Hon. Joseph R., Jr., U.S. Senator from Delaware, prepared 
  statement......................................................    10
Hagel, Hon. Chuck, U.S. Senator from Nebraska, prepared statement    24
Johnson, Hon. David T., Coordinator for Afghanistan Assistance, 
  Department of State, Washington, DC............................     4
    Prepared statement...........................................     7
Lugar, Hon. Richard G., U.S. Senator from Indiana, opening 
  statement......................................................     3
Rodman, Hon. Peter W., Assistant Secretary of Defense for 
  International Security Affairs, Department of Defense, 
  Washington, DC.................................................    12
    Prepared statement...........................................    14
Shahryar, Hon. Ishaq, Afghanistan Ambassador to the United States 
  of America.....................................................    44
    Prepared statement...........................................    48

                                 (iii)

  

 
                   THE RECONSTRUCTION OF AFGHANISTAN:
                               AN UPDATE

                              ----------                              


                      WEDNESDAY, FEBRUARY 12, 2003

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:34 a.m. in room 
SD-419, Dirksen Senate Office Building, Hon. Richard G. Lugar 
(chairman of the committee), presiding.
    Present: Senators Lugar, Hagel, Chafee, Coleman, Biden, 
Sarbanes, Feingold, and Corzine.
    The Chairman. This meeting of the Foreign Relations 
Committee is called to order. Today the committee meets to 
review the United States' policy toward Afghanistan and our 
ongoing efforts to assist that country in recovering from the 
damage incurred under the rule of the Taliban and former 
tenants, such as Osama bin Laden and the al-Qaeda.
    In the months ahead the United States will be focusing 
increased attention on threats posed by Iraq and North Korea, 
but we cannot abandon our commitments or lose sight of our 
goals in Afghanistan. The international community will take 
notice of our staying power in Afghanistan. If we are able to 
help Afghanistan transition into a secure democracy, we will 
bolster our ability to attract allies in the war against 
terrorism.
    Our commitment to Afghanistan is also a demonstration of 
how we will approach post-conflict Iraq, the subject of our 
hearing yesterday. American credibility is on the line in these 
situations and we must understand that failure to follow 
through could have extremely negative consequences in the war 
on terror.
    While military experts have been saying for some time that 
the war against the Taliban and the al-Qaeda is winding down, 
American troops remain in harm's way. Estimates suggest that as 
many as 1,000 al-Qaeda fighters remain active inside 
Afghanistan. Most recently, allied forces took action at Spin 
Boldak in eastern Afghanistan, and just 2 weeks ago four 
American Marines were killed when their Blackhawk helicopter 
crashed 7 miles from the Bagram Air Base. To date 47 American 
service members have lost their lives since operations in 
Afghanistan began last fall.
    In addition to ongoing military operations, the United 
States is leading the way in the reconstruction and 
revitalization of Afghanistan. More than 2 million refugees 
have returned, crops are being planted, mines are being 
cleared, children are returning to school, and women are 
emerging as a critical force in the future of Afghanistan. We 
should be proud of all that has been accomplished thus far 
under very difficult circumstances.
    Early on, President Bush announced that the United States 
would, and I quote, ``not just simply leave after a military 
objective has been achieved.'' But in response to the 
President's commitment, the United States in fact provided more 
than $500 million in humanitarian reconstruction assistance to 
Afghanistan in fiscal year 2002, and I am hopeful the 
Afghanistan Freedom Support Act which Congress passed last year 
will accelerate the already substantial progress being made in 
the country.
    Despite this progress, the challenges ahead are daunting. 
While humanitarian aid and emergency assistance has been 
generous, the recent fighting in the south and the continued 
control of warlords in various locales demonstrate the 
fragility of the situation. The United States is taking the 
lead in training a new Afghan National Army [ANA], but this is 
a slow process.
    In the meantime, security in Afghanistan depends upon U.S. 
military power and the International Security Assistance Force, 
[ISAF]. The ISAF was created by the Bonn Agreement and has 
reached its agreed strength of 4,900 troops. But the need to 
expand the ISAF and issues surrounding its leadership and force 
levels continue to be topics of debate.
    I agree with those who suggest that ISAF must expand its 
area of operations beyond the capital. The need to maintain 
security, distribute aid, and establish the credibility of the 
interim government exists throughout the country, not just in 
Kabul, the capital.
    Furthermore, the challenge of finding nations willing and 
able to lead the ISAF is becoming increasingly difficult. The 
United Kingdom and Turkey have previously led the force and 
Germany and the Netherlands recently took command. But efforts 
to identify a followup leader have thus far been unsuccessful.
    Late last year, the Defense Department announced plans to 
establish eight joint regional teams, composed of U.S. combat 
and civil affairs officers, in order to provide security for 
reconstruction efforts and to help extend the Afghan 
Government's reach into the countryside. This is an important 
initiative, but it cannot fully compensate for the value of an 
expanded ISAF.
    The issue of counternarcotics is closely linked with the 
overall security situation in Afghanistan. Experts report that 
as much as $1 billion in heroin is being shipped out of the 
country each year. A large portion of these profits are lining 
the pockets of some of the same warlords who are threatening 
the stability of the Karzai government. The United States must 
formulate a long-term plan to address the threats associated 
with narcotrafficking. I am hopeful the administration will 
submit to Congress a plan of action to address these threats.
    With this in mind, I look forward to hearing from our 
witnesses, not only on the successes achieved to date, but the 
administration's future plans and policies for Afghanistan, 
specifically those to be achieved through the Afghanistan 
Freedom Support Act.
    Before turning to Senator Biden--and I will do so when the 
Senator appears--he has had a train delay and will be with us 
shortly for his opening statement--I want to welcome today's 
witnesses. We are pleased to have them. We will call first upon 
David Johnson, the State Department's Coordinator for 
Afghanistan; and then we will hear from the Assistant Secretary 
of Defense for International Security Affairs, Peter Rodman, on 
the United States' policies and plans.
    We are especially pleased that the Afghanistan Ambassador 
to the United States of America will join us to provide an 
Afghan perspective in the second panel.
    Finally, let me point out that this hearing represents the 
first in a series designed to investigate reconstruction 
efforts and the ongoing security challenges in Afghanistan. 
Upon the Senate's return from recess, the committee will host a 
meeting with Chairman Hamid Karzai. Dr. Karzai has provided 
important leadership to Afghanistan at a critical time in its 
history. It will be a great privilege to have him with us for 
that meeting.
    We look forward to the witnesses this morning and I call 
now upon our first witness, the Honorable David Johnson, for 
his report. Thank you, sir.
    [The prepared statement of Senator Lugar follows:]

             Opening Statement of Senator Richard G. Lugar

    Today the Committee meets to review U.S. policy toward Afghanistan 
and our ongoing efforts to assist that country in recovering from the 
damage incurred under the rule of the Taliban, and from former tenants 
such as Osama bin Laden and al-Qaeda.
    In the months ahead, the United States will be focusing increased 
attention on threats posed by Iraq and North Korea, but we cannot 
abandon our commitments or lose sight of our goals in Afghanistan. The 
international community will take notice of our staying power in 
Afghanistan. If we are able to help Afghanistan transition into a 
secure democracy, we will bolster our ability to attract allies in the 
war against terrorism. Our commitment to Afghanistan is also a 
demonstration of how we will approach post-conflict Iraq. American 
credibility is on the line in these situations, and we must understand 
that failure to follow through could have extremely negative 
consequences on the war on terror.
    While military experts have been saying for some months that the 
war against the Taliban and al-Qaeda is winding down, American troops 
remain in harm's way. Estimates suggest that as many as 1,000 al-Qaeda 
fighters remain active inside Afghanistan. Most recently, allied forces 
took action at Spin Buldak, in eastern Afghanistan; and just two weeks 
ago, four American Marines were killed when their Blackhawk helicopter 
crashed seven miles from Bagram airbase. To date, 47 American service 
members have lost their lives since operations in Afghanistan began 
last fall.
    In addition to on-going military operations, the United States is 
leading the way in the reconstruction and revitalization of 
Afghanistan. More than two million refugees have already returned; 
crops are being planted; mines are being cleared; children are 
returning to school; and women are emerging as a critical force in the 
future of Afghanistan. We should be proud of what has been accomplished 
thus far under very difficult circumstances.
    Early on, President Bush announced that the United States would 
``not just simply leave after a military objective has been achieved.'' 
In response to the President's commitment, the United States provided 
more than $500 million in humanitarian and reconstruction assistance to 
Afghanistan in fiscal year 2002. I am hopeful that the Afghanistan 
Freedom Support Act, which Congress passed last year, will accelerate 
the already substantial progress being made in Afghanistan.
    Despite this progress, the challenges ahead are daunting. While 
humanitarian aid and emergency assistance have been generous, the 
recent fighting in the south and the continued control of warlords in 
various locales demonstrate the fragility of the situation in 
Afghanistan.
    The United States is taking the lead in training a new Afghan 
National Army. But this is a slow process. In the meantime, security in 
Afghanistan depends upon U.S. military power and the International 
Security Assistance Force (ISAF).
    The ISAF was created by the Bonn Agreement and has reached its 
agreed strength of 4,900 troops. But the need to expand the ISAF, and 
issues surrounding its leadership and force levels continue to be 
topics of debate. I agree with those who suggest that the ISAF must 
expand its area of operations beyond the capital. The need to maintain 
security, distribute aid, and establish the credibility of the interim 
government exists throughout the country, not just in Kabul. 
Furthermore, the challenge of finding nations willing and able to lead 
the ISAF is becoming increasingly difficult. The United Kingdom and 
Turkey have previously led the Force, and Germany and the Netherlands 
recently took co-command. But efforts to identify a follow-up leader 
have thus far been unsuccessful.
    Late last year, the Defense Department announced plans to establish 
eight ``Joint Regional Teams,'' composed of U.S. combat and civil 
affairs officers, in order to provide security for reconstruction 
efforts and to help extend the Afghan government's reach into the 
countryside. This is an important initiative, but it cannot fully 
compensate for the value of an expanded ISAF.
    The issue of counter-narcotics is closely linked with the overall 
security situation in Afghanistan. Experts report that as much as $1 
billion in heroin is being shipped out of the country each year. A 
large portion of these profits are lining the pockets of some of the 
same warlords who are threatening the stability of the Karzai 
government. The United States must formulate a long-term plan to 
address the threats associated with narco-trafficking. I am hopeful 
that the administration will submit to Congress a plan of action to 
address these threats.
    With this in mind, I look forward to hearing from our witnesses--
not only on the successes achieved to date but on the administration's 
future plans and policies for Afghanistan, specifically those to be 
achieved through the Afghan Freedom Support Act.
    Before turning to Senator Biden for his opening statement, I would 
like to welcome today's witnesses. First we will hear from David 
Johnson, the State Department's Coordinator for Afghanistan, and then 
from Assistant Secretary of Defense for International Security Affairs, 
Peter Rodman, on U.S. policies and plans. We are especially pleased 
that Afghanistan's Ambassador to the United States, Ishaq Shahryar, 
will join us to provide an Afghan perspective.
    Finally, let me point out that this hearing represents the first in 
a series designed to investigate reconstruction efforts and the ongoing 
security challenges in Afghanistan. Upon the Senate's return from 
recess, the committee will host a meeting with Chairman Hamid Karzai. 
Dr. Karzai has provided important leadership to Afghanistan at a 
critical time in its history. We look forward to receiving him and 
listening to his recommendations.

STATEMENT OF HON. DAVID T. JOHNSON, COORDINATOR FOR AFGHANISTAN 
        ASSISTANCE, DEPARTMENT OF STATE, WASHINGTON, DC

    Mr. Johnson. Thank you, Mr. Chairman, and thank you for the 
opportunity to testify today before your committee.
    Mr. Chairman, 17 months ago Afghanistan was mired in more 
than 2 decades of conflict. Its people were living under the 
brutally repressive Taliban regime, suffering human rights 
abuses on a dramatic scale. Afghan women were oppressed, girls 
were denied an education, religious minorities were persecuted, 
and citizens had virtually no rights. For most people, it was 
almost a reign of terror. Humanitarian problems were immense 
and there was no prospect for a productive economy. Afghanistan 
was a haven for drug producers and drug traffickers. Tragically 
for the United States and its citizens, Afghanistan was also a 
parasitic host for al-Qaeda.
    Today, Mr. Chairman, the Taliban is history. Its surviving 
terrorist elements have been forced into hiding. Afghans relish 
their new-found freedom. June's emergency Loya Jirga created a 
representative government with broad popular support. 
Afghanistan's first peaceful transition of power in decades 
occurred with the handoff from the previous Afghan interim 
authority to the current transitional government headed by 
President Karzai.
    The quick and generous response of the international 
community last year to the plight of Afghans helped to avert a 
major humanitarian disaster. Now, though humanitarian 
assistance remains a necessary part of international aid to 
Afghanistan, we are placing a greater emphasis on 
reconstruction. Major infrastructure projects are getting under 
way, in addition to innumerable small-scale projects across the 
country.
    The United States, together with Saudi Arabia and Japan, is 
rebuilding the key segment of the ``ring road'' which links 
Kabul to Kandahar to Herat. Together with improvements in 
communications, an opening of transportation routes can help 
tie the country together economically as well as politically. 
Already goods and services are available to a degree previously 
unimaginable to most Afghans, and the seeds of a developing 
market economy have now been planted.
    In other positive developments, an independent media has 
begun to take root, a small disarmament program has begun in 
the north, and schools have reopened across Afghanistan. More 
than a million girls have enrolled in schools and women are 
reentering universities.
    President Karzai issued an important decree in December 
outlining the size and character of a civilian-controlled 
Afghan National Army and the United States and France are 
training the core of that military force. Similarly, Germany 
has taken initial steps to train a national police force.
    Afghanistan is clearly moving in the right direction. This 
is no small accomplishment and the people of Afghanistan 
deserve great credit for this achievement.
    Despite my upbeat assessment, there is clearly an 
underlying fragility. Taliban and al-Qaeda remnants remain in 
Afghanistan. They continue their attempts to disrupt the 
efforts of the Afghan Government and the international 
community, using disinformation, intimidation and violence. 
Poppy production increased this past year. The central 
government's institutions are growing in strength, but the 
challenges of training, equipping, housing, and paying 
government employees, including law enforcement and military 
personnel, are indeed daunting.
    While we must continue to rely in some areas on local 
leaders to provide security and stability, in the longer term 
we have to help Afghans create national institutions with 
national sources of support, rather than relying indefinitely 
on regional leaders with independent militias. Only by doing 
this will we draw the center and the regions together.
    To create a viable central government and establish the 
basis for a stable democracy and developing market economy, it 
is critical that the Bonn Agreement be fully implemented. Most 
of the commissions called for in the Bonn Accords--the 
judicial, human rights, and civil service commissions--have 
been established and a constitutional drafting committee is now 
in place.
    But the challenges ahead are considerable. The timetable 
for holding national elections in June 2004 is ambitious. The 
process of drafting and securing popular support for the 
country's constitution will be difficult. There are profound 
social, religious, and political crosscurrents which must be 
addressed in this document.
    The constitution must offer the fundamental framework for a 
society and a judicial system based on respect for human rights 
and the rule of law. While it does not have to settle all of 
these issues, it must set the terms of their debate, create a 
government based on the consent of the governed, and provide 
for the basic rights of citizens required by international 
standards, including freedom of conscience.
    To achieve these objectives, the United States will 
continue to work with Afghanistan as well as with other donors 
to help rebuild and reform Afghanistan's judicial system. This 
is an enormously complicated task. Lawyers and judges must be 
trained, laws rewritten, courts and prisons must be 
rehabilitated. In an underdeveloped country that began marching 
backward in the 1970s, the to-do list is indeed a very long 
one.
    Moreover, for the rule of law to prevail Afghanistan must 
have an effective, professional police force. Germany has taken 
responsibility as the lead nation to work with the Afghan 
Government to create such a force. But the road ahead will not 
be easy nor fast. The estimated 75,000 police in Afghanistan 
have no strong central authority and the various police forces 
in the country's 32 provinces operate with considerable 
autonomy. Corruption in many areas is rife. Although the 
initial focus of training will be to get the police in Kabul up 
to speed, we also need to train and equip police in other parts 
of the country.
    Ultimately, Mr. Chairman, Afghanistan must be able to 
provide for its own internal and external security if it is to 
be fully established as a strong and stable nation State. The 
United States recognizes the need to build an Afghan National 
Army and to do it right. We and the French have been careful 
and deliberate in training the first five battalions of this 
army. It will take time to build an effective military force 
and there are challenges that must be confronted and overcome. 
We must also link the building of an army to a broader effort 
to disarm, demobilize, and reintegrate Afghan veterans.
    Despite these challenges, we are determined to succeed. 
Afghanistan's long-term stability demands a national military 
force that is multi-ethnic, disciplined, subordinate to 
civilian authority, adequately armed and equipped, and 
sustainable.
    In Kabul, the International Security Assistance Force 
retains the critical task of keeping the capital and its 
environs stable and secure. The British and Turkish forces have 
led ISAF well in the past year and the United States will 
support the German and Dutch co-lead of ISAF which began 
formally on February 10, just 2 days ago. We believe ISAF will 
need to maintain its presence in Kabul at least through the 
Afghan elections in June 2004, at which point the Afghan 
National Army should be able to begin to pick up increasing 
responsibility for security in the capital and beyond. That is 
the point at which we can reexamine this issue.
    With respect to security in the provinces, Operation 
Enduring Freedom continues. U.S. and other coalition forces 
remain at work hunting Taliban and al-Qaeda remnants and 
dealing with other threats to peace and security. We are also 
establishing, in concert with the central government, 
Provincial Reconstruction Teams throughout Afghanistan. The 
first team was deployed in Gardez in late December, a second 
deployed to Bamiyan in January, and a third will be established 
in Kunduz before the end of this month. Sites for future teams 
include Mazar-e-Sharif, Herat, Malwan, Jalalabad, and Kandahar.
    The composition of these teams will vary by location 
depending on local reconstruction and security requirements, 
but generally the teams will consist of civil affairs 
specialists, engineers, medical personnel, linguists, and U.S. 
regular and special forces, as well as U.S. diplomats and 
assistance personnel. Afghanistan national army personnel and 
personnel from our coalition partners will also participate in 
some of these teams.
    The presence of these teams should enhance security where 
they operate, permitting Afghan Government authorities, 
international organizations, representatives of donor nations, 
and NGOs to go about the crucial business of reconstruction in 
a more secure and stable environment.
    There is obviously much to do, but we are committed to the 
future of Afghanistan and our investment in terms of lives and 
national treasure has already been considerable. The President 
has repeatedly reaffirmed his intention for the United States 
to remain engaged for the long haul. To do that, we must 
continue to work with you in the Congress. We need your 
support, your ideas, and your engagement. They are an integral 
part of our government's effort to support Afghanistan.
    I am delighted to be here today and I will do my best to 
address your questions. Thank you, Mr. Chairman.
    [The prepared statement of Mr. Johnson follows:]

     Prepared Statement of Hon. David T. Johnson, Coordinator for 
              Afghanistan Assistance, Department of State

    Thank you, Mr. Chairman, for the opportunity to testify today 
before the Committee. As I will outline in my remarks, we have many 
reasons to be upbeat about developments in Afghanistan.
    Some seventeen months ago, Afghanistan was a country still mired in 
more than two decades of conflict. The vast majority of its people were 
living under the brutally repressive Taliban regime and suffering human 
rights abuses on a dramatic scale. Afghan women were oppressed, girls 
were denied an education, religious minorities were persecuted, and the 
common citizen had absolutely no democratic rights whatsoever. The 
humanitarian problems besetting the country were immense, and there was 
no prospect for economic recovery. Afghanistan was a haven for drug 
producers and traffickers. Tragically for this nation and the scores of 
others that lost citizens on September 11, Afghanistan was also a haven 
for international terrorists.
    Today, the Taliban regime is history. Surviving terrorist elements 
have been forced into hiding, their networks and plans disrupted. 
Afghans are relishing a newfound freedom. The Emergency Loya Jirga in 
June of last year succeeded in creating a representative government 
with broad support from the population. The first peaceful transition 
of power in Afghanistan in 23 years occurred with the handoff from the 
previous Afghanistan Interim Authority to the current Transitional 
Government headed by President Karzai. President Karzai and his 
government are actively pursuing implementation of the Bonn Agreement 
and creating the various commissions needed to draft a constitution and 
create a democracy in which human rights--including the rights of women 
and ethnic and religious minorities--are protected.
    The quick and generous response of the international community to 
the plight of Afghans in the immediate post-conflict period helped 
avert a major humanitarian disaster caused in part by drought and the 
unexpectedly large number of returning refugees. Now, though 
humanitarian assistance will remain a necessary part of international 
aid to Afghanistan for the foreseeable future, a greater emphasis is 
being placed on reconstruction activities. Major infrastructure 
projects are underway in addition to innumerable small-scale projects 
across the country. The United States--together with Saudi Arabia and 
Japan--is contributing to a major project to rebuild a segment of the 
``ring road'' linking Kabul to Kandahar and Herat. Together with 
improvements in communications, an opening of transportation routes 
will help tie the country together both economically and politically. 
Reconstruction is a long-term commitment, one that the U.S. and 
international community have made. It will require significant 
resources over the coming years. We and the other donor nations need to 
begin planning for these resources now. The results of this effort are 
clear: Already, goods and services are available to a degree previously 
unimaginable to most Afghans, and the seeds of a developing market 
economy have been planted.
    In other positive developments, an independent media is taking 
root, a small but useful disarmament program has begun in the northern 
part of the country, and schools have reopened across Afghanistan. Over 
a million girls have enrolled in school, and women are entering 
universities. President Karzai issued an important decree in December 
outlining the size and character of a civilian-controlled Afghan 
National Army, and the United States and France are engaged in training 
the core of that military force. Similarly, Germany has taken initial 
steps to train a rational police force. Both of these training efforts 
emphasize human rights as an integral part of the conduct of the 
military and police. Almost across the board, things are moving in the 
right direction for Afghanistan. This is no small accomplishment, 
especially for a poor country emerging from decades of conflict, and 
the people of Afghanistan deserve great credit for coming together to 
make it happen.
    Despite this upbeat assessment, we must be forthright in assessing 
the underlying fragility of many of these accomplishments. Former 
Taliban and Al-Qaeda remnants remain in Afghanistan and the region, and 
they will continue to try to disrupt the aims of the Afghan government 
and the international community using disinformation, intimidation and 
violence. Poppy production increased this past year and we must 
continue to combat that scourge. The central government's institutions 
are growing in strength but the challenges of training, equipping, 
housing, and paying government employees--including law enforcement and 
military personnel--are daunting. While we must continue to rely to 
some degree on local leaders and their fighters to provide security and 
stability in many parts of the country, in the longer term 
Afghanistan's history strongly suggests that the existence of regional 
leaders with independent militias and outside financial sources will 
undermine the goal of creating a stable and effective central 
government. We are working with Karzai to draw the center and the 
regions together.
    Ultimately, Afghanistan must be able to provide for its own 
internal and external security if it is to be fully established as a 
strong and stable nation state. The United States recognizes the 
critical value of building an Afghan National Army (ANA) and building 
it right, and we and the French have been careful and deliberate in the 
training of the first five battalions of the ANA. It will take time to 
build an effective military force, and there are challenges that must 
be confronted and overcome. Recruitment will remain problematic--even 
if ANA salaries are increased--because the pool of potential recruits 
we must deal with remains largely uneducated and rived by ethnic 
divisions and old loyalties. We must also somehow ]ink recruitment 
efforts to the broader process of Disarmament, Demobilization and 
Reintegration (DDR) of Afghan fighters, recruiting into the ANA or 
providing other employment to those demobilized as appropriate. Despite 
these challenges, we must persevere. Afghanistan's long term stability 
demands a national military force that is multi-ethnic, disciplined, 
subordinate to civilian authority, adequately armed, equipped and 
maintained, and sustainable.
    In Kabul, the International Security Assistance Force (ISAF) 
retains the critical task of keeping the capital and its environs 
secure. British and Turkish forces have led ISAF well in the past year, 
and the U.S. Government will support the German and Dutch co-lead of 
ISAF, which began formally on February 10--just two days ago. We 
believe ISAF will need to maintain a presence in Kabul at least through 
the Afghan elections in June 2004, at which point we hope the ANA will 
have picked up increasing responsibility for security in the capital 
and elsewhere.
    We will therefore need to work within the United Nations to see 
ISAF's mandate extended past December 2003--the end of its current 
authorization. In response to calls from some quarters that ISAF be 
expanded to other parts of the country, it should be noted that the 
United States does not oppose the expansion of ISAF. It would be a 
significant challenge, however, to expand its operations to cover a 
country the size of Afghanistan, and no country has volunteered for 
this task.
    In terms of security in the provinces, Operation Enduring Freedom 
goes on and U.S. and coalition forces remain at work hunting Taliban 
and Al-Qaeda remnants and dealing with other threats to peace and 
security. We are also establishing in close concert with the central 
government ``Provincial Reconstruction Teams'' throughout Afghanistan. 
The first PRT was deployed in Gardez in late December. A Second team 
deployed to Bamiyan in January, and a third will set up in Kunduz this 
month. Proposed sites for future PRTs include Mazar-i Sharif, Herat, 
Parwan, Jalalabad and Kandahar. The composition of individual PRTs will 
vary by location depending on local reconstruction and security 
requirements, but generally the teams will consist of civil affairs 
specialists, engineers, medical personnel, linguists, and U.S. regular 
and Special Forces. Afghan National Army personnel and personnel from 
our coalition partners may also participate in some capacity. We hope 
that the presence of these teams will enhance security in the areas in 
which they operate, permitting Afghan government authorities, 
international organizations, representatives of donor nations, and NGOs 
to go about the crucial business of reconstruction in a more secure 
environment.
    To create a viable central government and establish the basis for a 
stable democracy and developing market economy, it is critical that the 
Bonn Agreement continue to be implemented. The Judicial, Human Rights 
and Civil Service Commissions called for in the Bonn Accords have been 
established, and a Constitutional Drafting Committee is at work and 
expects to have a draft constitution by early March. The challenges 
ahead are considerable, however. The timetable for holding national 
elections in June 2004 is ambitious. The process of drafting the new 
constitution and obtaining public buy-in for it will also prove a 
complicated task. There are profound social, religious, and political 
currents that somehow must be satisfied in the final document. The 
constitution must offer the fundamental framework for a society and a 
judicial system based on respect for human rights and the rule of law.
    In that vein, the United States will continue to work with 
Afghanistan, Italy and others in the international community to help 
rebuild Afghanistan's judicial system. This is an enormously 
complicated task. Lawyers and judges must be trained, laws rewritten, 
courts and prisons rehabilitated--the list of things to do is long. In 
addition, in order for the rule of law to prevail, Afghanistan must 
have the security provided by an effective and professional police 
force. Germany is the lead nation in working with the Afghan government 
to create such a force, but the road ahead will not be easy or fast. 
The estimated 75,000 police in Afghanistan have no strong central 
authority, and the various police forces in the country's 32 provinces 
operate with considerable autonomy. Corruption is rife in many areas. 
Although the initial focus of training will be to get the police in 
Kabul up to speed, the need to train and equip police in other parts of 
the country is obvious. Active international engagement on this issue 
will remain vital for the foreseeable future.
    Narcotics production and trafficking pose a critical threat to 
security in Afghanistan. We and our international partners see 
narcotics as a crosscutting issue for all reconstruction and 
developmental assistance. The 2002 estimate for opium poppy cultivation 
shows an increase of approximately 30,000 hectares in Afghanistan and 
we expect another large crop this year. Weak institutions, corrupt 
officials, impoverished farmers, and strong warlords and drug 
traffickers hobble implementation of the Afghan government's opium ban. 
Insecurity in many poppy-growing areas hinders NGOs from full 
implementation and monitoring of development programs. U.S. counter-
narcotics support for the UK lead on this issue and the Afghan 
government focuses on alternative livelihood programs, building up 
Afghan law enforcement capacity, and running a vigorous public affairs 
campaign against drugs. With our G-8 partners, we are encouraging 
neighboring countries to strengthen interdiction capabilities and 
increase crossborder cooperation to stop the regional drug trade. These 
strategies will develop over the long term in tandem with progress in 
overall security and reconstruction efforts in Afghanistan.
    We appreciate the strong support of Congress for our commitment to 
Afghanistan. The Afghanistan Freedom Support Act has helped reinforce 
the message that the United States will not walk away from this war-
torn country. We plan to put its provisions to good use, by providing 
assistance to the Afghan National Army through drawdown. I thank the 
Committee for its key role in the enactment of this legislation last 
year.
    There is obviously still much to do in Afghanistan. We have made a 
necessary commitment to the future of that country, and our 
investment--in terms of lives and rational treasure--has already been 
considerable. The Bush Administration has repeatedly stated its resolve 
to remain engaged in Afghanistan. Regardless of the other challenges 
that our nation may have to face, our commitment to Afghanistan will 
hold strong. To confront our challenges effectively, we must continue 
to work with Congress, and I am delighted to be here today as part of 
that process.

    The Chairman. Thank you very much, Mr. Johnson.
    At this point I want to recognize the distinguished ranking 
member of our committee for his opening statement.
    Senator Biden. I will be very brief, Mr. Chairman. I would 
ask unanimous consent that my statement be placed in the 
record.
    The Chairman. It will be published in full.
    Senator Biden. And I apologize for being late.
    Just 2 months ago, the President signed the Afghanistan 
Freedom Support Act of 2002, and Senator Hagel and Senator 
Lugar and I cosponsored that. It was pushed forward by this 
committee, and we finally got it passed. But the act authorizes 
$3.3 billion for reconstruction and security of Afghanistan 
over and above the funds the President might see fit to 
allocate from other sources. In recognition of the fact that 
Afghanistan recovery is a long-term effort and in recognition 
of America's continued commitment, the sum was structured as a 
4-year authorization.
    The President's budget proposes funding for Afghanistan for 
fiscal 2004 that remains approximately the same level as it did 
in 2002 and 2003. But none of this will make much of a 
difference without security, and security is jeopardized, in my 
view, by the administration's decision not to seek an expansion 
of the U.N.-mandated peacekeeping force.
    We are already seeing Afghanistan drop off the radar 
screen, not with our witness, but in the country at large and 
the world at large. What level of commitment will the 
administration display once Afghanistan winds up behind Iraq 
and North Korea and whatever comes next?
    So Mr. Chairman, I think we have to remember why you and 
Senator Hagel and I and our colleagues on the committee decided 
to pass this Afghanistan Freedom Support Act in the first 
place. I can sum it up in three words: warlords, drugs, and 
terrorism. We have made precious little progress in any of the 
three. We did it to prevent future Afghans from becoming a 
replay of the past and we did it for the sake of the people of 
Afghanistan.
    But we also did it for the sake of our own national 
security, and I am anxious to hear from our second witness. We 
are able to talk about--I am going to tell Mr. Johnson others 
now, I am going to want to know--I want to know precisely what 
warlords are in charge, what areas do you have little or no 
impact? Tell me who our greatest problems are, the names of 
them? Is it Ismail Khan? Is he cooperating with Iran, which he 
is. What is going on with regard to Tajikistan's involvement in 
the north?
    These are things I am very anxious to hear about, not just 
generic assertions about our long-term commitment. And I look 
forward to hearing that.
    As I said, I ask unanimous consent my entire statement be 
placed in the record. I thank you for your indulgence.
    [The prepared statement of Senator Biden follows:]

           Prepared Statement of Senator Joseph R. Biden, Jr.

    Mr. Chairman, I congratulate you on calling this important and 
timely hearing. With war clouds gathering over Iraq and an 
unacknowledged crisis looming in North Korea, public attention has 
shifted from our unfinished business in Afghanistan.
    At this time last year, I had just returned from a visit to Kabul. 
Every day I spent in that city, I was asked the same question over and 
over: Will America help to rebuild Afghanistan, or will we just declare 
victory and go home?
    There was tremendous good will toward the United States, but also a 
great deal of suspicion. The Afghans I met were grateful to us for 
ousting the Taliban, but worried about our long-term commitment.
    The people of Afghanistan have long memories: After helping drive 
the Soviets out of the country in 1989, the United States quickly lost 
interest in the war's untidy aftermath. Nation-building was slow, 
frustrating, and, above all, expensive. So, as my hosts in Kabul 
reminded me, we quickly left the Afghans to fend for themselves.
    In some parts of this administration, ``nation-building'' is a 
dirty phrase. But the alternative to nation-building is chaos--a chaos 
that churns out bloodthirsty warlords, drug-traffickers, and 
terrorists. We've seen it happen in Afghanistan before--and we're 
watching it happen in Afghanistan today.
    Warlords, drugs, and terrorists. The connection is as clear as a 
bell: Terrorists use drug profits to buy safe haven from warlords. That 
pretty much defined the state of Afghanistan throughout the 1990s--and, 
sadly enough, it looks like it may define Afghanistan for the 
forseeable future.
    As President Bush said in another context, ``This looks like a 
rerun of a bad movie, and I'm not interested in watching it.'' Well, 
we've already seen the coming attractions, and the feature is loaded on 
the next reel.
    Warlords: Instead of accepting our NATO allies' offer to help share 
the burden of peacekeeping in Afghanistan, we have placed 
responsibility for security on the unsteady shoulders of Afghanistan's 
warlords. We call them ``regional commanders'' now, but many observers 
would have less savory names for them. We pay them millions of dollars, 
and we don't demand much in exchange.
    Let's remember that it was the brutal anarchy of the warlords that 
caused the people of Afghanistan to welcome the Taliban's rise to 
power. In the mid-1990s, even the rough justice meted out by the 
Taliban was regarded by some in Afghanistan as preferable to the utter 
chaos that preceded it.
    Today, many of the very same warlords ousted from power are back in 
their old lairs. And, as relief workers, journalists, and human rights 
advocates tell us, they're up to their bloody old tricks. Murder, rape, 
theft and torture--they're instruments of policy now. And the central 
government, with few resources of its own, is powerless to do much 
about it.
    Drugs: One sector of the Afghan economy has chalked up an 
astounding recovery from the devastation of the Taliban era. According 
to UN figures released last week, Afghanistan has now regained its 
status as the world's largest source of opium.
    In 2002, the report stated, Afghanistan produced 3,400 tons of the 
drug--that's more than 18 times the amount produced during the last 
year of Taliban rule.
    The value of this harvest to growers and traffickers was $2.5 
billion--more than double the entire amount of aid given to Afghanistan 
by all nations combined for 2002.
    Terrorists: We've seen what happens when warlords and drug-
traffickers take over a country--they soon make their nation a haven 
for terrorists. This happened under the Taliban, and it is happening in 
Afghanistan once again.
    One year ago, we were hunting high and low for a fellow named Osama 
bin Laden. One year later, we're still hunting for him--along with his 
top deputy, and Taliban leader Mullah Umar. One year later, it seems 
Bin Laden is very much alive, most likely hidden somewhere in or near 
Afghanistan.
    In November, our intelligence agencies and the White House 
confirmed the likely authenticity of an audiotape made by Bin Laden. He 
was gloating about attacks on Western targets in Indonesia and Kenya, 
and promising future terrorist assaults. Just yesterday another Bin 
Laden audiotape, not yet definitively authenticated, was described by 
Secretary Powell and aired on CNN.
    One year ago, we were hoping to roll up al-Qaeda and its allies 
like an old rug. One year later, we're in an Orange Alert--the second-
highest threat level, only reached twice since 9/11--due to continuing 
al-Qaeda activities.
    Mr. Chairman, these facts make one thing very clear: We have a 
great deal of work left to do in Afghanistan.
    Just two months ago, the President signed the Afghanistan Freedom 
Support Act of 2002. I am very proud of the fact that this landmark 
piece of legislation, sponsored by Senator Hagel and cosponsored by me 
and Senator Lugar, was pushed forward by this committee during the 
period of my chairmanship. Your own leadership on this issue, Mr. 
Chairman, was crucial in winning passage for the vitally important Act.
    The Act authorized a total of $3.3 billion for the reconstruction 
and security of Afghanistan--over and above whatever funds the 
President might see fit to allocate from other sources.
    In recognition of the fact that Afghanistan's recovery is a long-
term effort, and in recognition of America's continuing commitment, 
this sum was structured as a 4-year authorization.
    The President's budget proposes funding for Afghanistan for fiscal 
year 2004 that remains at approximately the same level as funding for 
fiscal years 2002 and 2003. But none of this will make much of a 
difference without security--and security is jeopardized by the 
Administration's decision not to seek an expansion of the UN-mandated 
peacekeeping force.
    We're already seeing Afghanistan drop from the radar screen--what 
level of commitment will the administration display once Afghanistan 
has to line up behind Iraq, North Korea, and whatever comes next?
    And, Mr. Chairman, let's remember why you, Senator Hagel and I 
(along with our colleagues on this committee) decided to pass the 
Afghanistan Freedom Support Act in the first place. I can sum it up in 
three words: warlords, drugs, terrorism.
    We did it to prevent Afghanistan's future from becoming a replay of 
its past.
    We did it for the sake of the people of Afghanistan, but we also 
did it for the sake of our own national security.
    Mr. Chairman, we have several distinguished witnesses before us 
today. I look forward to their testimony--and to finishing the job that 
we've started in Afghanistan.

    The Chairman. Thank you, Senator Biden.
    I want to recognize now our second witness, Peter Rodman, a 
good friend of our committee, a frequent testifier, whose 
timely testimony today is important to us. Please proceed.

   STATEMENT OF HON. PETER W. RODMAN, ASSISTANT SECRETARY OF 
   DEFENSE FOR INTERNATIONAL SECURITY AFFAIRS, DEPARTMENT OF 
                    DEFENSE, WASHINGTON, DC

    Mr. Rodman. Thank you very much, Mr. Chairman. I want to 
apologize for being late myself. As you know, I had another 
commitment. I am hosting the Defense Minister of Colombia for a 
working group. But I was able to fulfill that obligation and 
come here, and I thank you for your courtesy and your 
indulgence.
    I have just had a chance to see a copy of the chairman's 
opening statement and I certainly agree with the statement 
about the necessity to follow through. If we fail to follow 
through as a country on what we have begun and undertaken in 
Afghanistan, then that will impact not only the war on 
terrorism, but American credibility generally.
    But the commitment of the administration is to do precisely 
that, and it is a unified commitment of the Department of 
Defense, the Department of State and every other agency that is 
engaged there.
    I have submitted a formal statement which you have for the 
record.
    The Chairman. It will be published in full in the record.
    Mr. Rodman. I thank you for that, and if I may I would like 
to make a few general remarks.
    Our fundamental goal as we define it is to help the Afghans 
build their institutions. It is not for us to do it for them. 
It is for us to do what we can do, what we need to do, to help 
them create conditions for the political and economic 
construction that is going on.
    For the Department of Defense, the most important dimension 
of course is the security dimension, and this includes not only 
helping buildup the army. This is a means, not a end. It is a 
means, as I said, to help them provide security and an 
environment in which this political and economic task of 
construction can go forward.
    Our assessment, however, is that most of the country is 
basically stable. Our assessment is that 75 to 80 percent of 
the violent incidents occur in about 20 percent of the country, 
and that 20 percent is to an increasing degree al-Qaeda and 
Taliban elements attempting to regroup and American and 
coalition forces going after them. Most of the country seems by 
our assessment to be generally stable. Moreover, there is a 
structure of stability, which was the accomplishment of the 
Bonn process, an equilibrium among the different political 
forces in the country, learning the habits of getting along 
with each other, while we help build the central institutions 
and help strengthen the central government over a period of 
time.
    As Ambassador Johnson has mentioned, 2 million refugees 
have returned and--2 million--and that is not a phenomenon that 
suggests the country is inhospitable to people getting on with 
starting their lives up again. There are thousands of 
humanitarian projects under way, some of which the Department 
of Defense is contributing to, others of course USAID, and of 
course the international community.
    The other thing I want to point to is what David referred 
to, what we call the Provincial Reconstruction Teams. We think 
this is a very flexible and creative instrument for addressing 
the security problems that remain in most of the country, and 
we think it is responsive to the needs that were perceived by 
those who are arguing for ISAF expansion. These Provincial 
Reconstruction Teams are a more robust version of small teams 
we had around the country in liaison with the different 
regional leaders. But these teams will have military forces as 
well as other agencies, to provide a sense of security, to 
facilitate the efforts of all those involved in the 
humanitarian and economic reconstruction effort.
    These teams we think are a flexible instrument for, as I 
said, providing a sense of reassurance, exerting our influence 
in the different regions on behalf of the unity of the country. 
It, by the way, will help in the training of the ANA because 
Afghan National Army units will accompany some of these teams 
where they go.
    President Karzai has received this idea very 
enthusiastically and I think Ambassador Brahimi as well. So 
this is an American initiative which responds to what we see as 
the need. These teams will go all over the country where needed 
and the teams will be adapted to the circumstances that they 
find. In some cases there will be a minimal security problem 
and most of the team will be doing the humanitarian work. In 
other areas, where needed, the military element will be robust 
enough to provide the sense of security that is needed.
    Let me stop there, however, Mr. Chairman, and I am happy to 
contribute to this discussion. But I do want to emphasize that 
the administration is united and I think with the Congress in 
doing the job and staying as long as needed to do the job. We 
did not come this far to walk away from it. We think the 
problems are manageable. We think this country, Afghanistan, 
has come a tremendously long way in one year's time, and it is 
certainly our commitment to stay and do the job as is 
necessary.
    [The prepared statement of Mr. Rodman follows:]

  Prepared Statement of Hon. Peter W. Rodman, Assistant Secretary of 
               Defense for International Security Affairs

                       post-conflict afghanistan
    Mr. Chairman, members of the committee, I thank you for the 
opportunity to discuss with you the Administration's planning and 
policy with respect to Afghanistan.
    President Bush summed it up best in his State of the Union Address: 
``In Afghanistan, we helped liberate an oppressed people. And we will 
continue helping them secure their country, rebuild their society, and 
educate all their children--boys and girls.''
    The Department of Defense is committed to this goal in Afghanistan. 
We cannot permit Afghanistan to become again a safe-haven for global 
terrorism, and we will not. The best assurance of that is to help the 
Afghan people and their government lay the foundation for lasting peace 
and stability.
    The Afghan people have suffered enormously over the last 25 years. 
Their sacrifices have been great, and the United States is committed to 
helping them raise themselves from the ashes of war and destruction--
not only to assure them a better future, but so that Afghanistan can be 
a model to others of peace, moderation, and well-being in the region 
and in the Muslim world.
    Before the fall of the Taliban, Afghanistan was ruled by tyrants 
and terrorists, and impoverished by them. Whatever the problems that 
remain, there cannot be any doubt that Afghanistan is a story of 
accomplishment and progress:

          Over 3 million schoolchildren, many of them young girls, are 
        filling the classrooms of Afghanistan.

          Schools, hospitals, clinics, and wells are being rebuilt by 
        Afghans, with U.S. and international assistance.

          Over two million Afghan refugees have returned to their 
        native land from neighboring countries and abroad. They are 
        voting, with their feet, their confidence in their country.

          Our military Civil Affairs teams are making a difference in 
        the lives of many Afghan villagers across the country.

          Afghanistan will also adopt a new constitution by the end of 
        the year with elections to follow in June 2004.
          The United States will do its part, in this international 
        effort, to help provide Afghans with the resources and support 
        they require. We are confident that the overwhelming majority 
        of Afghans welcome and support our presence in their country as 
        a force for liberation, security, and progress.

    In the dimension of security--the Defense Department's special 
concern--there are certainly challenges that remain. I will discuss 
them in a moment. But a structure of stability has been built in 
Afghanistan, and a strong basis for national unity. Our job is to 
support our Afghan friends as they strengthen their national 
institutions.
    This is a point I want to stress: Afghanistan belongs to the 
Afghans. We do not aspire to ``own'' it or run it. We want to help 
Afghans achieve their goals for peace, freedom, and security. We want 
to help them create the conditions that will enable them soon to take 
complete charge of their own affairs as rightful members of the 
international community, sharing the same rights citizens of so many 
freedom-loving countries enjoy. We do not want to overstay our welcome, 
or become the target of various resentments, or foster a relationship 
of dependency that retards Afghan progress instead of promoting it. It 
is a delicate balance. So far, I believe we have maintained that 
balance.
    But, as the Afghanistan Freedom Support Act shows, the 
Administration ald Congress clearly share the goal of doing what is 
needed to finish the job.
Operation Enduring Freedom--Update
    Remnants of the Taliban and al-Qaeda remain in outlying areas, and 
the Coalition war to defeat them continues. In cooperation with the 
Afghan government and our Coalition partners, U.S. forces are 
continuing combat operations, particularly in be South and Southeast of 
the country. Most recently [27 January], U.S. Special Forces, with the 
help of local Afghans, identified and defeated a terrorist sanctuary 
near the southern town of Spin Buldak close to the Afghan-Pakistan 
border. U.S. forces in Operation Mongoose [27 January] killed a number 
of terrorists and seized arms caches and cave complexes. While all 
terrorist forces have not been enumerated, our forces are playing 
offense, not defense. We have eliminated terrorist sanctuaries in the 
country and are continuing to pursue them in the rugged terrain of the 
Afghanistan-Pakistan border area--with the active cooperation of both 
governments.
Security/ISAF
    The overwhelming majority of Afghans live free of terrorism. 
Seventy-five to eighty percent of the relatively few continuing 
terrorist-related incidents occur in twenty percent of the country--and 
that is the South and Southeast portions of the country where the 
Taliban and al-Qaeda threat persists.
    In Kabul, the International Security Assistance Force (ISAF), first 
under British and more recently under Turkish lead, has been a force 
for peace and stability. Whether patrolling the streets of Kabul, 
lifting the 24-year old curfew or helping to renovate schools, ISAF 
troops--about 4,500 strong--have helped to restore a sense of normalcy 
in a city that has been ravaged by war. In November of last year, the 
United Nations Security Council voted to extend the ISAF mandate until 
December 2003. Following Turkey's successful tenure, we look forward to 
continued cooperation with the Germans and Dutch as they take over as 
lead nations in this important mission. And we are already considering 
who might be able and willing to take on the follow-on responsibility.
    ISAF's mandate in Kabul, as its name suggests, is to assist the 
Afghans in providing security. This only underscores the importance of 
rebuilding Afghanistan's own national security institutions. The most 
important of these tasks are the training of the Afghan National Army, 
National Police, and Border Guard, and the demobilization, disarmament 
and reintegration of Afghanistan's regional militias.
Security Sector Reform
    We recognize the key role of building an Afghan National Army. As 
President Bush said to newly selected Chairman Karzai last January ``we 
are going to help Afghanistan develop her own military. That is the 
most important part of this visit.'' Following the President's 
direction, the United States has taken the lead in assisting the 
Afghans to build a new national army. Our immediate objective for the 
Afghan National Army (ANA) is to build a strong Central Corps in Kabul 
that can protect the government of Afghanistan, give that government a 
counterbalance to existing regional forces, and conduct internal 
security operations without Coalition support.

  <bullet> To date, U.S. and French trainers have trained six 
        battalions, with a seventh currently undergoing training.

  <bullet> These battalions are all multi-ethnic and broadly 
        representative of the country. The personnel are also vetted 
        with respect to human rights standards.

  <bullet> Over the next year and a half, we will continue to assist 
        the Afghans in developing a capable Ministry of Defense and 
        General Staff and a Support Command capable of providing 
        logistical and administrative support to the Army.

  <bullet> Two companies from the 3rd battalion of the ANA have 
        deployed to Orgun-E in Paktika province, with a Special Forces 
        team. These U.S.-trained Afghan soldiers have effectively 
        carried out both combat missions and civil presence tasks.

    The Afghan National Army is a top priority for President Karzai and 
for this Administration. A well-equipped and well-trained national army 
will be the foundation for security and national unity in Afghanistan. 
We look forward to working closely with Congress in allocating the 
needed resources, and we welcome your continued support in the weeks 
and months ahead.
    The U.S.-led effort to build the Afghan National Army is just one 
element of the international effort for security reconstruction. Major 
General Karl Eikenberry serves as the U.S. Security Coordinator in 
Kabul and Dr. Dov Zakheim, the Department of Defense Comptroller, also 
serves as the Department's Reconstruction Coordinator for Afghanistan. 
A key part of their mission is to spur as well as coordinate efforts 
among the lead nations for security reconstruction.
    Germany has the lead for training the Afghan police force, and 
Italy is the lead for reconstruction of the Afghan judicial sector. 
Japan and the UN are responsible for disarmament, demobilization, and 
reintegration. The UK has the lead in working with the Afghan 
government to fight the scourge of narcotics. The United States is also 
working to identify and assist a lead nation for the Afghan border 
police, which has been transferred from the Ministry of Defense to the 
Ministry of Interior. Here in Washington, the State Department 
coordinates U.S. assistance for these sectors.
Economic Reconstruction
    Economic reconstruction is a cornerstone of long-term stability in 
Afghanistan. President Karzai and Finance Minister Ashraf Ghani are 
leading Afghanistan's effort to recover from years of war, drought, and 
Taliban mismanagement. Reconstruction and security are mutually 
reinforcing. Clearly, conditions of security facilitate economic 
reconstruction. But economic progress is also a long-term condition of 
stability--and perhaps also short-term. The international community has 
pledged more than $6.6 billion in aid over 5 years at a series of donor 
conferences. For its part, the United States last year in Tokyo pledged 
nearly $300 million for the first year of Afghanistan's reconstruction, 
but we have delivered twice that. Since October 2001, in fact, the 
United States has delivered over $840 million toward Afghanistan's 
humanitarian aid and economic reconstruction.
    Coordination of U.S. Government assistance to Afghanistan is the 
responsibility of the State Department under the guidance of Ambassador 
David Johnson--major roles in the delivery of that assistance are 
played by the U.S. Agency for International Development (USAID) and the 
State Department's Bureau of Population, Refugees, and Migration (PRM). 
The United States devoted $200 million worth of emergency food 
assistance to Afghanistan in fiscal 2002, helping to prevent a famine 
and reduce hunger. The United States has helped vaccinate 4.3 million 
children against measles, treat 700,000 cases of malaria, and provide 
basic health services for more than two million people last summer. The 
United States is contributing $80 million to a $160 million effort by 
the United States, Japan, and Saudi Arabia to rebuild the southern half 
of the ``ring road'' linking Kabul, Kandahar, and Herat. The United 
States is also helping with other infrastructure projects, including 
efforts to rebuild more than six thousand wells, springs, and 
irrigation canals, and to restore the water supply to Kabul, Kandahar, 
and Kunduz.
    While the State Department and USAID lead the effort, the 
Department of Defense also supports and assists reconstruction. U.S. 
military Civil Affairs troops in Afghanistan implement projects that 
support both the military mission and the reconstruction priorities of 
the Afghan central government and the U.S. Government. This support has 
included more than 200 projects worth over $11 million to help 
reconstruct 127 schools benefiting over 200,000 students, 26 medical 
facilities benefiting over two million people, and 400 wells benefiting 
631,000 people.
    The Afghan government has called for accelerated reconstruction 
assistance, and rightly so. We are in consultation with President 
Karzai and his associates on priorities.
    In 2001 we overthrew a terrorist regime in Afghanistan. Last winter 
we helped avert a humanitarian disaster. Our goal in 2003 is to build 
on the successes of the preceding years by working with the Afghan 
government, other nations, and the United Nations and other 
international organizations to help accelerate reconstruction across 
the country.
Provincial Reconstruction Teams
    The improved security situation in Afghanistan as a whole has made 
it possible for us to begin a transition from combat operations to what 
we call stability operations in most of the country. This transition 
will include the deployment of Provincial Reconstruction Teams (PRTs), 
two of which have already been deployed to Gardez and Bamiyan, and a 
third will be deployed to Konduz later this month. They will be 
deployed in other locations, to include Kandahar, Herat, Mazar-e-Sharif 
Jalalabad, and Parwan over the next few months. The PRTs will work with 
central government and regional authorities, and with the United 
Nations Assistance Mission to Afghanistan (UNAMA), to assist in 
securing the conditions for economic, civic and other programs.
    The teams will be Coalition-led, multi-national and inter-agency in 
composition. The size of each team will differ based on regional 
requirements (approx. 50-60 personnel). Each team will include a range 
of military and civilian disciplines including Special Forces, 
engineers, medical personnel, State, USAID and other U.S. government 
agency representatives, working in close coordination with Afghan 
governmental ministries, local authorities, UNAMA, NGOs, and other 
international organizations. They are meant to facilitate the efforts 
of others, not substitute for them.
Conclusion
    We are realistic about the difficulties and about how far we have 
to go. But it is not ``realistic'' to fail to recognize how far we have 
come. We value Congress's vital and constructive role in the evolution 
of U.S. policy. We also emphasize the essential role that other nations 
must play--this cannot be only an American responsibility. But I can 
assure this Committee of the Defense Department's strong positive 
commitment to support the President's goal of helping the Afghan people 
secure their country and rebuild their society.
    Thank you once again, Mr. Chairman, for this opportunity to brief 
you and the other members of this Committee.

    The Chairman. Thank you very much, Mr. Rodman.
    We have attendance of five Senators at this point. Let me 
consult with the ranking member. Shall we try 7 minutes at the 
outset?
    Senator Biden. Yes.
    The Chairman. All right. I will start the clock running on 
my questions now.
    I want to quote from an article that appeared in the Wall 
Street Journal yesterday called ``The Other Front,'' by Ahmed 
Rashid. You may have seen this, but let me just cite the 
sentences that I think are important. He says, ``Hundreds more 
extremists are mobilizing in Waziristan in the Pakistan tribal 
belt adjacent to eastern Afghanistan for a spring offensive 
calculated to coincide with a U.S. assault in Iraq. They come 
from a variety of groups--al-Qaeda, former Taliban, Afghans 
loyal to the renegade commander Hekmatyar, and members of the 
Islamic Movement of Uzbekistan.''
    Then later in the article: ``Western diplomats in Islamabad 
and Kabul, Afghan officials, and U.S. Army officers at Bagram 
now strongly believe that segments of the Pakistan Intelligence 
Services and its religious parties are allowing the Taliban to 
regroup on the Pakistani side of the border. U.S. officers at 
Bagram say 90 percent of attacks they face are coming from 
groups based in Pakistan. `I think the security situation in 
Pakistan is going to be a problem for some time because of 
freedom on the border,' says General Richard Myers, Chairman of 
the Joint Chiefs of Staff, in an address to U.S. troops there 
on December 21.''
    As the article by Mr. Rashid says, ``Simply put, Pakistan's 
strategy appears to be to continue hunting down non-Afghan 
members of the al-Qaeda hiding in Pakistan, so a level of 
cooperation with the U.S. continues, while at the same time 
allowing the Pashtun Taliban and others to maintain their 
presence in Pakistan.''
    Further in the article, ``India and Russia, who are arming 
several non-Pashtun warlords, are giving support to the 
President of Tajik and Russia has proposed,'' according to the 
article ``$100 million worth of weapons to Mr. Famm's army, 
which is outside the U.S.-led initiative to build a multi-
ethnic Afghan National Army. Interference in Afghanistan by all 
the neighbors''--and cited are ``India, Russia, Iran, the 
central Asian republics are involved in one warlord group or 
another in the process of this.''
    I mention this not because it is a total surprise to both 
of you, but because we had compelling testimony yesterday about 
the future of Iraq and the point that was made by at least two 
of our witnesses in the second panel, that after the 
hostilities are over we can anticipate activity by all the 
neighbors, vigorous activities.
    I believe that those are occurring in Afghanistan, and I 
suspect, as my opening statement said, I believe the ISAF span 
of control is too small, that the aid arrangements and defense 
being prescribed out there are important. Giving full credit to 
all the good things that are occurring, the fact of the matter 
is that this is a situation which came upon us, the United 
States of America, very unexpectedly. We did not anticipate the 
attack by the terrorists on the World Trade Center or the 
Pentagon, nor that very shortly thereafter we would be engaged 
in military activity in Afghanistan.
    But we were and we are still, with our Armed Forces in 
harm's way. And I find I sense, not a quietude about this, but, 
as the ranking member pointed out, a sliding almost off the 
radar screen of a situation that militarily is still in play 
and in terms of the politics is a jumble of areas covered by 
warlords, with a valiant Chairman Karzai in the capital hoping 
to work with Americans to get a national police force or some 
control of the roads that do not rely upon the warlords, and 
with a whole segment of the country, as Secretary Rumsfeld has 
briefed us, in military play, with Pakistan and the inroads 
back and forth--hardly stability in any respect.
    Now, this has got to move, it seems to me, into a much more 
successful, confident pattern. I stated frankly yesterday that 
I find it astonishing that in our preparation for Iraq we are 
so far behind the curve of our military preparation. We heard 
one witness after another point out that there will be chaotic 
conditions if military success is visited there. There still 
are law and order problems, a problem of justice, a problem of 
how to feed the people, two-thirds of which are now receiving 
food from 40,000 stations.
    In Afghanistan, mercifully, the numbers of persons were 
smaller. The world community, working through the World Food 
Program and other organizations was well-equipped. The United 
States facilitated that, as did other nations.
    But we are coming to the end of the line even with ISAF, 
including with the Germans and the Dutch, unless somebody 
volunteers.
    As one final thought--and I ask for a comment if you have 
one--from time to time there has been discussion that NATO--
Lord Robertson made this suggestion--might be very helpful in 
trying to find volunteers for ISAF. There might be assignments. 
This may be a way in which the international community enters 
very visibly and effectively.
    I hope that might be the case. But nevertheless, I am not 
quieted at this moment by the situation in Afghanistan. I think 
this is fraught with potential difficulty militarily, quite 
apart from terms of the civil economy. And I have great respect 
for all who are working with a problem that we had not 
anticipated, but one with which we have to have success because 
our credibility is on the line. Failure would be to witness the 
question of another vacuum and the recurrence of all the 
problems that have been visited upon us by 9/11.
    This is an editorial, a statement, a summary, a plea. But I 
ask either one of you for comment, Mr. Johnson or Mr. Rodman.
    Mr. Rodman. Let me start. I first want to say that it 
should not fall off our radar screen. We agree with you 
completely. As a nation we have to follow through. The 
committee is doing a service by holding this hearing and is 
doing a service by keeping us on our toes, and it should be in 
the Nation's consciousness until the job is done.
    But let me just respond to two points you made. First of 
all, the last point. ISAF is not coming to ``the end of the 
line.'' I can say that we are already engaged in looking for 
follow-on candidates and there are some countries that--they 
haven't yet made public commitments--so I don't want to mention 
them--but I am reasonably optimistic that there will be 
interest in taking the next turn.
    You are right, NATO can have a role. It is already playing 
a role in helping force generation and planning. Whether NATO 
would take over as such is a different question. But if we have 
lead countries or countries taking the lead and NATO supporting 
it, then I think its future is assured.
    And as you know, the mandate was extended through the end 
of this year, and I think there is plenty of international 
support for ISAF.
    Second, I just wanted to address one of the first points 
you made, about the Wall Street Journal article. It is true 
that Taliban and al-Qaeda elements are attempting to regroup in 
the Pakistan-Afghan border area. But first of all, that is a 
war-fighting job. That is what our forces are doing and 
coalition forces. That is not an ISAF job in any circumstance. 
That is not ISAF's mandate. It is not its capability.
    ISAF is well suited to helping provide a backstop to 
security where the Afghans are able to do some of it. The war-
fighting is in the south and southeast part of the country. 
That is our job, which we are handling as best we can. Some of 
the fighting is shifting; some of the Taliban and al-Qaeda are 
shifting to the south from the southeast, partly because we are 
more active in the southeast in chasing them.
    As I said in my statement, our forces are playing offense, 
not defense, and a lot of the clashes that go on come from 
circumstances in which we are actively patrolling and catching 
people and going after people. So even the statistics of 
violence reflect that to some degree.
    But you have to separate the war-fighting job and the job 
that ISAF does and ISAF-like operations can do and the job of 
our Provincial Reconstruction Teams, which again is not war-
fighting.
    The Chairman. Can we separate, though? The point I am 
trying to make, the Pakistan view here is unclear. The 
allegation of the article in essence is that on the one hand 
Pakistan is cooperating fully, trying to pin down Taliban and 
send them to Guantanamo and what have you; on the other hand, a 
part of Pakistan is sending people across the border or 
allowing them liberally to come into this picture as a part of 
establishing Pakistan influence, in the same way Iran is 
establishing influence or Russia or India.
    In other words, there is an impact of all of these 
countries that I presume our statesmen, the two of you and 
others, are aware of, but clearly is bigger than ISAF. This is 
international politics impinging upon a very small country.
    Mr. Johnson. If I could attempt to address a couple aspects 
of that. I think, with all due respect to Mr. Rashid, he 
probably writes in a little more detail than is known there. 
But we are actively engaged with all the States that you had 
mentioned, that are neighbors or have had traditional interests 
in Afghanistan, some of them not very helpful interests, some 
of them very destructive interests.
    We believe that President Musharraf is fully committed to 
this fight, but I think it is also clear that portions of the 
territory of Pakistan are not completely controlled by the 
central government. That is not a new situation, and that is 
the area where the exchanges go back and forth.
    We have worked through various fora both directly, 
bilaterally, and in multilateral exchanges with all the 
countries you mentioned to encourage, cajole, in every way we 
can to bring them into the process of creating these 
institutions, working with us. In particular, I had a 
discussion as late as yesterday with representatives of the 
Russian Federation about how to integrate what they wish to 
give to Afghanistan into our program of training the Afghan 
National Army. They have had a long-term relationship with the 
Northern Alliance and so those ties are longstanding, but I 
think that ultimately they see their interests with building 
the central government.
    There are probably some hedging of bets going on with all 
these States, but we are particularly encouraging and working 
with those States who have traditionally used Afghanistan as a 
forum to work out bilateral differences not to do that and to 
see their future in terms of encouraging stability in 
Afghanistan.
    The Chairman. Thank you. Senator Biden.
    Senator Biden. The author of that article may not know much 
about Afghanistan, but I am going to say something outrageous: 
I do, and the fact of the matter is they are all hedging their 
bets. Not one single solitary surrounding country has any faith 
there will be a central government--none, n-o-n-e, and both of 
you know it. Not one surrounding government is betting on the 
staying power or that there will be a central government 
controlling all of Afghanistan.
    What bothers me, gentlemen, is not you personally. What 
bothers me is the administration redefinition of what 
constitutes security and stability. I have had this 
longstanding discussion up until recently on a weekly basis 
with the White House and with the National Security Adviser, 
for whom I have great respect. You have redefined what 
constitutes stability: lack of violence.
    That was not the mandate. The mandate was a central 
government controlling all of Afghanistan that was multi-ethnic 
and violence-free. You cannot get in an automobile, either one 
of you, without a military escort and travel from Kabul to 
Herat. You cannot do it. You would not do it.
    There is no stability in Afghanistan as we defined it 
initially. And what is exactly happening here is Musharraf is 
hedging his bet. Musharraf is wondering whether or not when 
Afghanistan goes down and Karzai leaves or is assassinated, 
whether or not--what does he face at home? You have parts of 
the International Security Service for Pakistan once again 
either turning a blind eye to or cooperating with part of the 
Pashtun. Why? Because Ismail Khan is cooperating with the 
Iranians, because the Tajiks are cooperating with the Russians.
    This is a replay, a replay of the last 100 years of 
history. And we knew that. I wish we would stop talking about 
stability. Give me a break, Mr. Rodman. You cannot, Karzai 
cannot, go outside of Kabul. There is no stability. Ismail Khan 
does not have to pick up the phone and ask whether or not any 
program is going to be developed in his part, his part, of 
Afghanistan, that comes from the central government.
    The whole purpose of the central government and us 
funneling the money through in the first place, as I sat there 
for hours in Karzai's office, was that he had to have something 
to give. Otherwise he has no--he needs one of two things: He 
either has to have a goody basket that decides when he is going 
to build a road, he decides whether a road gets built in Herat 
or a well gets dug; or he has to have the military force to be 
able to do it, to control it.
    Now, as the young kids say, ``we ought to get real here.'' 
I mean, look, we have made progress. Americans are out there 
risking their lives every single day. They are trying to track 
down the Taliban and they are trying to track down the al-
Qaeda. But right from the beginning the way we characterized 
this--how many al-Qaeda, how many Taliban forces did we say as 
we moved in we expected to have to confront? 50,000, 100,000, 
150,000?
    Do any of you remember the number that we talked about? Mr. 
Rodman, Defense Department, what do you think? What was the 
number we were talking about?
    Mr. Rodman. A year ago?
    Senator Biden. A year ago, before we invaded, as we 
prepared.
    Mr. Rodman. I do not remember the number.
    Senator Biden. Well, it was well over 100,000. Now, it does 
not take a mathematician for us to figure out every single 
Taliban killed, even with the exaggerated estimates, every 
single Taliban captured, every single Taliban member who came 
along and said, I have changed my ways, I have seen the Lord. 
Add them all up, that leaves somewhere between 50,000 and 
90,000 of them out there.
    Where do we think they all went? Do we think they all of a 
sudden had a, as we Catholics say, ``an epiphany?'' They are 
there. They are there, and it frustrates the devil out of me, 
as you can tell, by us sort of sugar-coating this. It is a 
terrible job, but the sine qua non is that no outside power 
other than us and an international force would mold 
Afghanistan, and Iran is molding western Afghanistan, Pakistan 
is molding parts of southeast Afghanistan, and the list goes 
on.
    So my frustration is you still cannot travel in the west. 
Ismail Khan has now decided that women should wear burkhas 
again. Man, that is stability. That is real stability. I do not 
mean this to be humorous. I am not trying to be a wise guy. But 
speaking for myself, what I am worried about is if the same 
standard is set down, if this is what we call commitment and, 
the phrase, ``stability-building, because I know ``nation-
building'' is not a good thing to say--whatever we call it, if 
this is the standard we are in, as they say on the east side of 
my city, ``in a world of hurt'' when we decide what our policy 
is with regard to Iraq.
    I will come back because I have questions and I have used 
up my time editorially here. But you know, when you have Atta, 
Dostum's rival, the Tajik former Northern Alliance commander, 
Ismail Khan, you have Gul, you have these guys who are out 
there who are the strongest of the warlords, and there is zero, 
zero, zero control from the central government, zero, that is 
not stability.
    That was not what we said and announced in Bonn was our 
objective. We are changing the definition of what success is.
    My last comment, Mr. Rodman is, you say ``we will stay 
there until the mission is finished.'' Have we redefined the 
mission? Is the redefinition of the mission that not that many 
people are being killed, because all the women are wearing 
burkhas again, the men are required not to shave any more, that 
we have ourselves in a situation where no one dares travel the 
roads, where the university is not functioning as was intended?
    That is stability. If that is how we define it, you are 
right, we are approaching stability. But if the mission is a 
centralized government that is able to be strong enough to 
resist the pressure of the surrounding States to alter the 
environment in Afghanistan, we are on the first rung on the 
ladder.
    So I need at some point a clear definition from the 
administration of what constitutes the mission, the mission. 
When do we know we have succeeded? When everyone salutes Ismail 
Khan--I keep picking on that one example, but--in Herat and no 
one is dying? Is that success, when we know his relationships 
with Iran, we know they are increasing? Is that stability? Is 
that the mission?
    If it is, that is not the one I signed onto.
    I would be happy to invite comments and I will be back with 
very specific questions.
    The Chairman. At this point let me proceed and then we will 
be back with another opportunity.
    Senator Hagel.
    Senator Hagel. Mr. Chairman, thank you.
    Gentlemen, thank you for coming before this committee this 
morning. As Senator Biden and Senator Lugar have stated, we are 
aware of the difficulty that you all are charged with, your 
colleagues. So you should know that we appreciate the kind of 
challenges that you are dealing with in this imperfect world.
    That recognized, which I think is important to recognize, 
the questions and comments we have just heard--and we will hear 
more before this hearing is complete this morning--are relevant 
for all the reasons you understand.
    Before I get to a couple specific questions, I was struck 
by both your testimonies, as I was with your colleagues' 
yesterday who were here to talk about a post-Saddam Iraq, in 
how many times you referenced our allies, our partners, 
coalitions to assist us. And as a result of that, I am further 
struck with certainly this administration's understanding that 
we cannot do this alone in Afghanistan or Iraq or North Korea 
or wherever. That should guide our acceleration of an 
enthusiasm about going to war in Iraq, but you are not here to 
talk about Iraq.
    But all of this does connect, I think. There is linkage to 
this, because we are talking about regions of the world. We are 
not talking about Afghanistan in a vacuum, as Chairman Lugar 
said, nor were we yesterday talking about Iraq in a vacuum. We 
have world terrorism. We are in Afghanistan for a number of 
reasons, but we are there as a result of world terrorism being 
visited on the United States of America.
    So even the much-maligned NATO allies Germany and France 
get some credit from the two of you this morning, so I am sure 
they appreciate that, and Americans must have some sense that 
France and Germany occasionally do their part. And I make that 
point because I hope your leaders are appreciating what you are 
saying today and what was said yesterday and what Tenet will 
say, I suspect is saying now, before the Senate Armed Services 
Committee and what I heard in the Intelligence closed door 
hearing yesterday, that in fact America cannot take on world 
terrorism alone.
    So we should slow down a little bit here and understand 
that others might have a different view of the world than us. 
But it may well be that that is important, to accommodate those 
views, because if we are to fulfill the commitments that you 
have laid out as a result of what the President of the United 
States said our commitment was going to be--and I think we all 
support that commitment up here for all the reasons we 
understand--then it is going to take a tremendous coalition of 
common interests, working with institutions like the United 
Nations and like NATO, to accomplish it.
    Now, with that said, let me get to some budget numbers. We 
talk about reconstruction projects, the provincial 
reconstruction teams, the ``ring road''. I would like to get 
into some of the specifics of how much money have we actually 
spent on reconstruction projects, infrastructure projects, job-
producing projects, the kind of economic power that Karzai 
needs to give some semblance of governance and some indication 
to the people of Afghanistan that he has a government, that 
there is somebody supporting him, rather than Special Forces in 
the mountains dealing with the east and western borders of 
Afghanistan.
    When, for example, is the ``ring road'' to begin? Has it 
begun? How much money in the $6.1 billion that was just asked 
for by the administration goes to reconstruction? It would be 
very helpful if the two of you could lay out some of those 
numbers for the committee and additional anticipated 
reconstruction numbers. And either can begin.
    Thank you very much.
    Mr. Johnson. Thank you, Senator. Allies are important in 
what we are doing in Afghanistan. The Germans and the Dutch 
working together in ISAF is a great move for us in the right 
direction and so we are grateful for their help. We are also 
grateful for the more than 1,000 troops who are participating 
in the coalition itself.
    With respect to the question about providing President 
Karzai with the resources that he needs in order to provide 
services, I would like to say that our primary goal in this 
entire undertaking is helping Afghans build the Afghan State. 
We have provided more than $20 million in the last year to help 
rebuild the ministries. We have provided more than $10 million 
for children's and women's institutions in health care.
    The President has committed $80 million to build this 
``ring road.'' The first of the contracts for the first 50 
kilometers has already been let. Surface preparation has 
already begun. It is the equation between the cost and the 
temperature. It is not appropriate right now to start laying 
blacktop, but that will begin probably on or about the end of 
March because that is when it will be appropriate to do so in 
terms of construction techniques.
    The Japanese will begin this month their survey of their 
portion of the road, which begins in Kandahar and heads back in 
the direction of Kabul. It will be our goal and intention to 
complete the section of this road from Kabul to Kandahar in 
advance of the elections in 2004. That is a big goal to meet, 
do not know if we can, but the President has publicly committed 
to complete the entire road within 3 years. There is going to 
be some funding required beyond the 2004 report that the 
President has placed before the Congress in order to do that. 
But we will be working on those numbers into the future.
    I think that our commitment and our goals and even our 
methods of trying to help the Afghan Government create these 
institutions are actually quite similar: trying to give him the 
textbooks he needs, the funding for the schools that he needs 
in order to provide education for his people. We are committed 
to doing this through the center, providing the central 
government with these types of resources, so that the 
population sees those good things coming from the central 
government.
    And it is not just in terms of the military that our allies 
and partners are important. It is also in terms of this 
reconstruction effort. European Union countries and the 
European Commission have themselves provided about a half a 
billion dollars in assistance during the first year of this 
project and will continue to provide more over time.
    Senator Hagel. May I ask, Secretary Rodman. I think this is 
the $6.1 billion that was requested from DOD, is that right, in 
additional moneys?
    Mr. Rodman. I am not sure.
    Senator Hagel. Is that correct, the $6.1 billion in 
additional moneys for Afghanistan for the war on terrorism, for 
the fiscal year 2003 budget? Is that coming out of DOD or is 
that coming out of State?
    Mr. Rodman. That is what I assume.
    Senator Hagel. You assume?
    Mr. Rodman. I do not have the budget figures in front of 
me.
    Senator Hagel. Are you aware that that request was made?
    Mr. Rodman. Yes.
    Senator Hagel. And you cannot tell me anything about it?
    Mr. Rodman. No, I am not up on the details of the budget. 
But I can reply for the record.
    [The following information was subsequently supplied.]

    In the consolidated Appropriations Resolution, 2003 (P.L. 108-7), 
the Congress appropriated $6.1 billion for Department of Defense 
activities. The majority of these funds will be used to fund the 
operations and personnel costs for Operation Enduring Freedom and the 
Global War on Terrorism. Some of these funds, however, may be used to 
fund ``Operation Noble Eagle'' (homeland defense and civil support 
missions, including air patrols over New York and Washington, in 
response to the terrorist attacks of September 11, 2000). DOD currently 
estimates these later costs at approximately $1.6 billion per month.

    Senator Hagel. Did you understand the purpose of this 
hearing this morning, really?
    Mr. Rodman. Yes.
    Senator Hagel. OK. Well, we would appreciate it if someone 
at DOD could explain to us why they asked for $6.1 billion and 
what that $6.1 billion would be used for.
    Thank you.
    The Chairman. Thank you, Senator Hagel.
    [Prepared statement of Senator Hagel follows:]

               Prepared Statement of Senator Chuck Hagel

    Afghanistan has come a long way since its liberation from the 
Taliban, but it remains a country on the razor's edge. The Government 
of President Hamid Karzai has made great gains in setting Afghanistan 
on the path to stability and progress, and in gaining the respect and 
support of the international community, but the job is far from 
complete.
    Afghanistan continues to need our help to construct its economy, 
health-care, education systems, and democratic political 
infrastructures. The general population of Afghanistan remains, for the 
most part, poor and malnourished. The forces of reaction and oppression 
still exist in Afghanistan's political culture and society. The reach 
of President Karzai's government does not yet extend very far beyond 
Kabul. Stability in many of the outlying provinces depends on the good 
graces of warlords whose interests and intentions cannot be trusted.
    Afghanistan is early into a long-term transition to stability. 
America and the international community must assure that Afghanistan 
does not slip off the precarious road it has taken away from civil war 
and oppression and toward a hopeful future.
    Afghanistan cannot be considered in a vacuum. America's commitment 
to Afghanistan is not simply for the benefit of the Afghan people, 
although that is all to the good. Our commitment to Afghanistan is also 
an investment in the security and future of the United States and our 
allies. What we do in Afghanistan is directly linked to our interests 
in fighting the global war on terrorism; to combating illegal narcotics 
trafficking; and to promoting regional stability in Central and South 
Asia. The struggle in Afghanistan is far from over. We must prevent 
Afghanistan from again becoming either a ``Great Game'' for outside 
powers or a refuge for despots and terrorists.
    Afghanistan is the first test in the global war on terrorism, and 
we cannot fail. The world is watching. Failure in Afghanistan would be 
a failure for U.S. power and prestige everywhere. America's security 
interests would suffer. The stakes are high and the margins of error 
are low. As other events dominate the headlines of our media and the 
agendas of our policy-makers, we cannot forget the stake that we have 
in Afghanistan, and how its future is now linked to our security.

    The Chairman. Senator Feingold.
    Senator Feingold. Thank you, Mr. Chairman.
    Thank you to the witnesses, and let me first compliment 
both the chairman and the ranking member. I do not want 
anything from either of you yet, but I just want to say that 
the hearings that were held under Senator Biden's chairmanship 
on Iraq at the end of July and early August were really some of 
the most useful hearings. I am not necessarily happy with the 
way we have headed, but I really felt that they set the stage 
for a lot of what has happened since then in our inquiry on 
this.
    Mr. Chairman, this series of hearings that you have set 
forth in the first few weeks of your chairmanship on North 
Korea and Afghanistan and Iraq have really allowed this 
committee to live up to what I think is its role--is to examine 
these matters in connection with each other rather than in 
isolation. I think it is a comfort to the American people that 
this committee is really stepping up to the plate and asking 
the tough questions.
    So I thank you for that and I look forward to more of these 
hearings.
    The Chairman. Thank you, Senator.
    Senator Feingold. Following on what Senator Hagel was 
talking to you about, if you could give me a general sense: 
What is the administration's assessment of total aid 
requirements, what is the plan for reaching that level, and 
what portion of the total burden does the United States expect 
to shoulder and what kind of commitments do we have from other 
donors to date indicating that the expectation about our own 
involvement will be realistic? Sir?
    Mr. Johnson. Thank you. The World Bank provided the 
estimate that was used for the Tokyo conference and that is 
what we are basing our best estimates on at this point. Their 
estimate was over a 10-year period approximately $10 billion 
would be required. The Tokyo pledges covered a range of dates 
up to 5 years. Ours was for 1 year. Some States pledged for a 
longer period of time. And the total pledges from that period 
were $4.5 billion over that period of time.
    I think that, if anything, the assessments over time are 
going to rise, because the degree of destruction is becoming 
more and more apparent, as is the expense of addressing that. 
So I think that, while the World Bank estimated that a year and 
a half ago, if they were to provide us a current estimate it 
would exceed the amount that they provided in that point.
    We have not posited a specific percentage that we wished to 
pledge against on this. Instead, we have sought moneys for 
specific programs that we think would provide the most impact 
in terms of helping build the Afghan State. For that reason, we 
have--the President decided this past fall that, in a turn from 
the traditions that we had provided general infrastructure over 
the last dozen to 20 years--we had left that to the 
international funding institutions, but because of the 
political impact of rebuilding this transportation network we 
stepped up and we began the effort to organize the 
reconstruction of the ``ring road.''
    We anticipate that at a meeting that will take place on the 
16th of March scheduled for Kabul, where the Afghan Government 
will present its next year's budget and its development budget, 
that the World Bank will make some announcements, pending their 
decisions over the next several weeks.
    Senator Feingold. I understand that, but if you can help me 
with this.
    Mr. Johnson. Sure.
    Senator Feingold. Because if a constituent asks me, and 
they will, constituents will ask me, of the $10.2 billion or 
higher figure, how much are we paying and how much are other 
people paying, could you give me a rough estimate of what you 
expect?
    Mr. Johnson. I think I can tell you what the--I can give 
you a rough estimate of what the pattern has shown so far, and 
the pattern has shown so far, if my head math is correct, that 
we are paying around a third of the amount that is being 
disbursed.
    I would also hastily add that our money is leaving our 
hands and going to projects more quickly than other people's, 
as is the historical trend. On the other hand, a lot of those 
other States have a great deal of staying power. So I do not 
doubt that they are going to come through on their commitments. 
We have provided I think only in the last few days a set of 
estimates of the payments that have been made by other States 
to the Congress that goes into some detail on this question.
    Senator Feingold. Thank you.
    What is the major impediment to expanding ISAF's scope of 
operations outside the immediate vicinity of Kabul?
    Mr. Rodman. I can take that one on. There are a number of 
reasons why this has not occurred. One is that none of the 
countries in ISAF is interested or willing to do it. In fact, 
the Turks and the Germans and Dutch who followed them made it 
almost a condition of their acceptance of the role. They wanted 
the mandate limited to Kabul, as it was in the original 
resolutions.
    Second, as we assessed this over the course of the past 
year thought we had other ways of addressing the problems that 
others were raising. The first solution we came up with was 
small teams around the country of Special Forces with an 
admixture of State Department personnel and other personnel, in 
a liaison role with the different regional figures, who have 
had a demonstrable effect in exerting American influence to 
avoid and minimize clashes among the different figures.
    That we thought served reasonably well as a more economical 
way of exerting our influence in the interest of stabilizing 
the situation.
    Finally, as we looked over the whole picture toward the end 
of last year, we came up with this idea I was discussing of 
Provincial Reconstruction Teams. We looked at the mission that 
our forces were carrying out and we discovered that the war-
fighting mission was really confined to this small portion of 
the country, the south and the southeast. In the rest of the 
country we really were not doing war-fighting any more, because 
the problem was not Taliban and al-Qaeda any more.
    So we came up with the idea of sort of expanding this 
concept of the smaller teams, having American forces and 
coalition forces get into a phase of what we call stability 
operations. We think we have addressed the concerns that a lot 
of people were raising about the sense of insecurity around the 
country. What we have come up with we think is a very flexible 
instrument, which adds to a sense of security, which 
facilitates the humanitarian efforts which are going on. One of 
the concerns that was expressed to us was that the agencies 
doing humanitarian work felt nervous about the security of 
where they were operating. So we think we have a partial answer 
to that in most of the country.
    The question of expanding ISAF is still open in theory, but 
President Karzai, Ambassador Brahimi and so on are very 
intrigued--``excited'' may not be too strong a word--by this 
new idea we have come up with, and I think we should give that 
a test and see whether it provides a sense of security that 
people have wanted in most of the country.
    Senator Feingold. Mr. Chairman, I know my time is up. I 
just want to comment that we went to war in Afghanistan because 
we were attacked and it seems to me we have an urgent need for 
real stability country-wide. I am, at least at this point, 
certainly not persuaded that this approach will work.
    If I could just ask a quick question that maybe has a very 
brief answer, how would you characterize the morale of U.S. 
troops currently in Afghanistan, Secretary Rodman?
    Mr. Rodman. Our sense is that it is quite good. I have an 
assistant of mine who spent 6 months in Kandahar on reserve 
duty as a corporal in the Special Forces, and he finds our 
people highly motivated, at least the Special Forces. They are 
on the front line, they are doing something vital. They 
interact with the population and their sense is that they are a 
welcome presence.
    I know General Pace, various officials, Paul Wolfowitz, who 
have been out there recently have the same sense, that our 
people are motivated and know that they are doing something 
important.
    Senator Feingold. Thank you, Mr. Chairman, for the extra 
time.
    The Chairman. Thank you very much, Senator Feingold.
    Senator Chafee.
    Senator Chafee. Thank you very much, Mr. Chairman.
    Following up on some of the previous questions, I think the 
direction we are going in was the risk of our unilateralism or 
perceived unilateralism in Iraq and how that might affect ISAF. 
And is there any overt pressure from any of the 18 countries to 
your boss, to Mr. Johnson, to Secretary Powell, that if you are 
going to go it alone in Iraq you can go it alone in Afghanistan 
also? Is there any of that going on?
    Mr. Johnson. In a word, no. I think that all of the 
countries which are participating in ISAF, as well as those who 
are participating in the civilian reconstruction effort, are 
fully committed to what we are all trying to do in Afghanistan. 
Many of them see their own bilateral interests affected. They 
see the security of their own populations affected. And I think 
that it is--I have not found a single instance where they have 
asked me any question related to other things outside of 
Afghanistan. They want this to work and they want to 
participate in it, and it is very much an effort which includes 
a range of countries, including alliance countries, but also 
including countries well beyond the NATO alliance.
    Senator Chafee. Yes, Mr. Rodman.
    Mr. Rodman. Senator, may I add a note to the same answer. 
If anything, it may be the opposite effect. I cannot 
psychoanalyze allied leaders, but some of them who are uneasy 
about Iraq seem eager to show that they are helping us in 
Afghanistan. The Germans and Dutch are quite eager to step up 
to this. Even when some of the recent tensions with Germany had 
begun several months ago, the Germans and Dutch were very eager 
to show they were going to step up to this responsibility.
    In any of the other countries, I do not detect any falling 
off of willingness to participate.
    Senator Chafee. So you can pretty much flatly say in the 
next few weeks we cannot expect to pick up the paper and see 
any of these 18 countries withdrawing from the Bonn Agreement?
    Mr. Rodman. I do not see any sign of that.
    Senator Chafee. My next question is on the elections. They 
are scheduled for June 2004, a year and a half away. Do you 
have any fears that there could be anti-American candidates 
elected, and what would we do in that instance?
    Mr. Johnson. The process of the elections is just getting 
under way. The International Foundation for Election Systems 
has just put a team on the ground. They are doing some early 
planning. They have got I think a very sound group that has got 
a lot of experience, that we have relied on in the past.
    I think, because this process has not really gotten very 
far, the constitution has not taken shape, that even the type 
of election this is going to be and whether there would be 
opportunities for opposition candidates that may not be popular 
with us to emerge is still open to question. So I think how we 
would deal with that is at this point, a bit hypothetical.
    That we would deal with it is not, though. If there were 
indeed candidates who represented a threat to our interests, if 
they were al-Qaeda candidates, to choose the most extreme 
example, we would have to take steps to protect our interests.
    Senator Chafee. So would you say that you are beginning to 
think about ways of preventing, as you said, the opportunities 
for those people to be involved in the democratic process?
    Mr. Johnson. We are in the process of assisting the 
Afghans, as we have said before, and assisting the U.N. in this 
case, in creating the structures for these elections. So we are 
aware of this potential. We will pay a great deal of attention 
to it. I think it is probably premature to say that we have 
thought about steps to prevent it at this point, because we 
have to see how the situation emerges as to what sort of 
election process is going to be created, what sort of 
candidacies are out there. But it is not something that we are 
going to take our eye off, that is for sure.
    Senator Chafee. Over and over we heard yesterday and today, 
yesterday about Iraq and here today, Afghanistan for the 
Afghans, Afghanistan is for the Afghans. Are you completely 
committed to that as we go forward to that democratic process? 
It is coming. A year and a half, it is not that far away.
    Mr. Johnson. That is absolutely correct. Eighteen months--
even less than that now--16 is not a long time to plan an 
election, to provide the structure for it, to engage in the 
civic education process for a country which is not used to 
having elections at all.
    So we have to get and we are getting accelerated on that 
timetable. We do believe that it is possible. We do think that 
the elections in the Bonn timetable are a timetable we should 
stick to there, in a sense an action-forcing event, so that 
compromises are forced to be made and we can move along the 
path that we think we need to move toward in order to keep the 
Bonn process intact and to help the Afghans build this 
government.
    I think we are talking about Afghanistan for the Afghans, 
if you will, and helping them build their institutions, not 
having us or any other institution of international power take 
over their country, remold it, and then hand it back to them. 
We want to assist them in building up their own institutions.
    Senator Chafee. Thank you. I know it is a prodigious task, 
herculean in fact, to try and transform into a democratic 
process. But it is relevant because of what we could be doing 
in Iraq, and what we heard yesterday is the same pitch, that we 
are going to have democracy in Iraq. So this could be the test 
tube for what might happen west of there. So thank you very 
much.
    The Chairman. Senator Corzine.
    Senator Corzine. Thank you, Mr. Chairman, and to the 
witnesses for being responsive.
    Let me identify first with the difficulty that I know 
reconstruction, rebuilding, and nation building may be. I had 
the good fortune of actually visiting Afghanistan last March 
and it is a high task, a hard task, that we are talking about 
here today.
    I also want to identify with the concepts that we have to 
think about the world on a comprehensive basis and allies in 
one area may be influenced. I am glad to hear that people are 
lining up to help us in Afghanistan. I presume that will follow 
through and that $10 billion World Bank target of resources, 
hopefully we will even be able to spread it more than just one-
third to the United States.
    I have a question that I guess will probably be more 
forcefully asked by Senator Biden, but we continue to have 
discussions about what is our mission here. I have one--I get 
this simple question regularly at town hall meetings: Wasn't 
our mission to bring to justice Mullah Omar, the leadership of 
al-Qaeda? We heard the simple, back of the envelope numbers 
that Senator Biden talked about. Are we fulfilling that mission 
in our war-fighting areas?
    Then I have the general question, since we are beginning to 
see a re-imposition of some of the Islamic enforcement 
measures--we heard the part talked about in western Iran with 
Ismail Khan. But there seem to be a number of steps, whether it 
has to do with cable television or whether the rights of women, 
that are seeming to be eroded relative to where we started out 
this process. Is that consistent with our mission?
    And third, do we really think that these provincial or 
regional teams, which we have not heard described in numbers, 
but are they really able--we heard numbers from 10 to 60 
people, scattered in regional teams--to bring about the 
accomplishment of the kind of mission that is so broad-based? I 
can only say that if that is what we are going to do in Iraq, 
where weapons of mass destruction are scattered about, one has 
a serious concern about whether we are going to be able to do 
it.
    And I think again I compliment the chairman for holding 
these hearings in a sort of a back to back context, because one 
is a guidepost for what might happen in the future. So on all 
three of those basic fronts, I would like to hear your 
commentary.
    Mr. Rodman. Let me start off. The first question was about 
the war-fighting mission, catching Mullah Omar. I think the 
President, at the beginning of this, stated multiple goals. 
Certainly finding some of these individuals was something we 
wanted to do and are still pursuing. But we also defined the 
goal in terms of making sure that Afghanistan was no longer a 
sanctuary and a training area and a headquarters for 
terrorists.
    So the terrorists are hiding, they are on the run. One 
thing they have not been able to do is to reconstitute and take 
back Afghanistan. We took Afghanistan away from them, and I 
still would hold to the view that most of the country is in the 
hands of the Afghans that we wanted to give it back to, not the 
Taliban and al-Qaeda.
    I cannot vouch for the number that Senator Biden said of 
how many al-Qaeda and Taliban there are. I do not know what the 
number is. I can ask people in our intelligence agencies. I am 
not sure that is the benchmark of what we were setting 
ourselves to do. We had, as I say, multiple goals and I think 
we have achieved a number of them.
    And the al-Qaeda and Taliban are in a particular area, in 
the border area, and we are chasing them. We know that al-Qaeda 
is around the world and possibly planning to come after us. But 
I do not think they are doing this planning in Afghanistan any 
more, and that was part of the goal we set for ourselves.
    Let me say a word about the Provincial Reconstruction 
Teams. I have no idea whether this is an adaptable model for 
Iraq. This is something we devised in the Afghan situation, not 
for the war-fighting mission, but to facilitate reconstruction 
and to help to provide a general sense of security for the 
civilian tasks of rebuilding that are going on. We think it 
addresses the problem that it was meant to.
    Senator Corzine. Are these numbers credible in trying to 
provide that kind of security for, a sense of security for the 
communities and regions that they are responsible for?
    Mr. Rodman. It is consistent with our assessment that most 
of the country is basically stable in terms of violent 
incidents. I am sorry Senator Biden is not here, but I think 
reducing the number of incidents is not a small matter. That is 
precisely the issue that the humanitarian organizations have 
been raising to us, saying they are nervous about operating in 
certain parts of the country because of violent incidents. So 
if that can be reduced and they have some sense of security, 
that is one of our objectives.
    And we have been accomplishing this up to now with even 
smaller teams, in liaison with the regional commanders. We are 
now doing that on a more robust basis. The numbers I think you 
have seen; these teams might have 50 or 60 people, some of whom 
would be military, others would be civilian, and it would 
depend on the need. Gardez is a place with a certain amount of 
insecurity. Bamiyan I do not think is a place where there is a 
lot of violence going on, so the team in Bamiyan is probably 
differently constituted than the other teams.
    But people spoke about the ``ISAF effect,'' wanting some 
psychological effect of a presence, international presence, 
that buttressed the sense of security, that was a kind of 
surrogate for the central authority of the Afghan Government 
and a representation of the international community, and that 
presence was thought to have a beneficial effect politically, 
psychologically, as well as being able to help with security 
functions.
    We think this idea is certainly worth trying out, and that 
is what we are doing right now.
    Senator Corzine. Human rights and women's rights, with 
respect to that?
    Mr. Rodman. David, why do you not take that.
    Mr. Johnson. I think one has to bear in mind that there are 
``conservative elements,'' to use a term, that are in 
Afghanistan. This society does not look at things in one single 
way. So we are seeing some resurgence of that. In the 
particular case that has caught the most attention, and rightly 
so, in the west, I think our assessment is that Ismail Khan is 
losing support rather than gaining it in behaving the way that 
he is. And we think that over time that is going to affect him 
and his ability to maintain any influence in the west of Iran. 
That is not going to be a one-day operation.
    I think that one of the things that I would emphasize here 
is that, whether we are on the first rung of the ladder or the 
second or the third or however many rungs the ladder has, we 
are involved in a process here that is going to have a long 
period of time associated with it, working with the Afghan 
authorities to help them build their institutions and assisting 
them over a very long period of time. So this is not a--we are 
not stopping now.
    If I could also say a little bit about the teams that you 
referred to, whether you describe it as learning by doing or we 
too are capable of responding to external stimuli, we have 
changed the way we have dealt with this. Peter referred to some 
efforts we had a year or so ago that were successful, but over 
time we adapted and this is another idea to try to address 
this.
    They are not cookie-cutters each one. They are different. 
And the command is going to deploy the first three and take 
what it calls a pause and assess how it is doing and then 
decide how to configure or to change the configuration of the 
remaining ones as it goes on. So this is not something where we 
have decided this is going to be the way it is done. We are 
going to learn as we go along. We are going to engage our 
partners in this process and we are going to, I think, do a 
better job as the summer goes on.
    Thank you.
    The Chairman. Thank you very much, Senator Corzine.
    Senator Coleman.
    Senator Coleman. Thank you, Mr. Chairman.
    I was not part of this esteemed body when U.S. forces 
entered Afghanistan, but as a lay citizen I really thought 
there was a singular mission, with the goals being a subpart of 
that. The President spoke very forcefully about nations that 
harbor terrorists and that the mission would be to ensure that 
Afghanistan was a place that no longer harbored the terrorists 
that were responsible for September 11, depriving terrorists of 
their sanctuary.
    I thought that was the mission, and it appears to me then 
there are various goals that if you want to make sure that 
mission stays successful you do not want to step back. So 
clearly we need long-term stability in Afghanistan. We need to 
deal with and have concerns about the influence of 
Afghanistan's neighbors, and I want to get back to a question 
about that. We want to understand and be cognizant of and deal 
with the fragility of the Karzai regime and what are its long-
term prospects for success. We are obviously concerned about 
the limited geographic reach of ISAF.
    So there are a series, then. If the mission--and again my 
sense is, and please correct me, that we were successful in the 
principal mission as established by the President, that 
Afghanistan was no longer going to be a place that was going to 
harbor terrorists responsible, provide sanctuary for terrorists 
who were responsible, for September 11.
    My concern is about the long-term, the success of that 
mission, and in particular a question raised by the chairman 
when he talked about the influence of the neighbors. Iran has 
been described as part of the ``axis of evil.'' If Iran is 
having an influence, do we run the risk of in portions of 
Afghanistan losing the success, losing what we have achieved in 
terms of the mission?
    So if you can help me on that one, and then I will throw 
out one other question. There was an article in the Christian 
Science Monitor just the other day that talked about the Afghan 
National Army, 600 new recruits being entered, and I presume 
that is a long-term, long-term prospect. But can you talk to me 
a little bit about the prognosis for the impact of the Afghan 
National Army in terms of providing the kind of stability that 
will allow for the continued success of the mission, which is 
to make sure that Afghanistan is not a place that is providing 
sanctuary for terrorists?
    Mr. Rodman. I do not think there is a dispute here. Maybe 
it is a semantic question. The main mission was to clean out 
Afghanistan and make it, as you said, no longer a haven for al-
Qaeda, and we are still chasing the al-Qaeda remnant. And that 
is not a secret. We have not finished that job, but we think 
the great bulk of the country is now in the hands of the 
Afghans that we want to run their own country.
    And just as you say, our interest in stability or our 
interest in helping this country rebuild its political system 
is precisely to make sure the post-Taliban vacuum, is filled by 
the good guys as the best long-term insurance against its being 
filled by the bad guys.
    On the interference of neighbors, I will leave to Dave to 
elaborate, but it is clear that the neighboring countries want 
to have their hand in it. They play favorites; they have their 
own clients in the country. They all like to do this. Now, 
whether they are succeeding is a judgment call, and our 
assessment is a little less dire than what we have heard today.
    And all of these outsiders worry about the influence of 
somebody else. They are rivals. It may be that everybody's 
second choice is the Bonn Agreement, so that if they cannot 
dominate, they do not want some other neighboring country to 
dominate. And that is the space that we have to strengthen the 
Afghan legitimate government, to make it more resistant to this 
outside interference.
    As I said, our assessment is that, yes, there are a lot of 
people trying to interfere. But whether they are undermining 
the process is a judgment call and we do not think it is in 
such danger.
    On the Afghan National Army, I can just say that it is 
progressing slowly but successfully. For the first several 
battalions, we were not able to recruit the full number of 
about 600. We turned them out and trained them, but they were 
understrength. The most recent battalion is at full strength, 
and there will be a seventh battalion that will be used mainly 
for filler units.
    So what we see is that the recruitment process is 
succeeding. There seems to be more interest among Afghans to 
join it. And we will continue this process of training, at 
least for the next year or so, at least through the election 
process, and we will keep going. One of the limiting factors 
has been up to now our ability to recruit, but we think that is 
clearly improving.
    Second, one of the benefits of these Provincial 
Reconstruction Teams is to bring Afghan units with us. So they 
will do missions and they will benefit from that experience.
    But in addition, the Afghan units have gone out on their 
own and done missions on their own.
    So we think this is working. The numbers are small, but 
they are multi-ethnic units. They are meeting the criteria that 
we set out. They are vetted according to human rights 
standards, and they are multi-ethnic. As the central authority 
grows in this dimension, it will have a political effect.
    Senator Coleman. If I can, Mr. Chairman, just raise one 
other question with the time that I have, and this is an area 
that I have not touched upon. But a U.N. report released in 
February 2003 noted that Afghanistan was the world's largest 
source of raw opium in 2002. I am concerned about in this 
country the rise again in heroin abuse and addiction and 
wondering what is being done to reduce opium production. How 
aggressive has the Afghanistan Government been in enforcing, in 
enforcing the ban on production, given these alarming 
statistics?
    Mr. Johnson. We have a slight dispute with the U.N. 
numbers, but even our number is quite large, so we do not have 
any dispute with the overall assessment.
    In terms of trying to divide up responsibilities and share 
burdens, the United Kingdom has taken on the role of the lead 
donor, the lead State, to help in the counternarcotics effort. 
That is because they have a very selfish interest since most of 
the heroin coming into London comes out of Afghanistan, whereas 
most of ours comes from Latin America.
    They had a program last year of so-called compensated 
eradication that they estimated managed to destroy about a 
third of the crop, which was quite successful given the 
circumstances. But that still leaves a very large amount 
outstanding.
    The Karzai Government we thought took a relatively--not 
just a relatively--a courageous step in pushing back and 
banning the production of opium. They have told us this year 
that they wish for foreign donors, foreign actors, to work on 
the Alternative Livelihoods Program and they are going to work 
on the eradication. The Governors in the various provinces have 
taken on that responsibility. There have been various 
assertions of how much of the crop they have destroyed at this 
point, but I think the jury is very much out on how that 
program is going to work and it is something that is going to 
bear a lot of watching by us.
    Senator Coleman. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Coleman.
    Senator Sarbanes.
    Senator Sarbanes. Thank you very much, Mr. Chairman. I 
yesterday commended you for scheduling this hearing and I want 
to repeat that commendation this morning, and also the fact 
that this is but the first in a series of hearings that the 
committee will hold with respect to Afghanistan.
    I very strongly support your opening statement that if we 
are able to help Afghanistan transition into a secure democracy 
we will bolster our ability to attract allies in the war 
against terrorism. American credibility is on the line and we 
must understand that failure to follow through could have 
extremely negative consequences for the war on terror. I think 
that is absolutely on point.
    I am encouraged that you and Senator Biden and others on 
this committee have been pushing this very hard. In fact, it is 
my own perception that it is the prompting of the Congress that 
has moved the administration to take more interest, although in 
my view nowhere near the interest that needs to be taken.
    I would say to the two witnesses at the table, we have a 
leadership now in Afghanistan that was arrived at through a 
process that bestows a legitimacy upon it within the country, 
as I perceive it at least, and a leader in Mr. Karzai who from 
all impressions is seeking to institute in his country a system 
and a commitment to values that would command our respect and 
international respect.
    So the Afghans have produced a leadership with which we can 
work closely and coordinate, and the rest of the international 
community as well. And I am concerned that we are not doing 
enough. Clearly we are falling short of the Afghanistan Freedom 
Support Act of 2002, which the Congress approved.
    Let me put this question to each of you. If the President 
were to call you in and say, I do not think we are doing enough 
on Afghanistan, I read Senator Lugar's opening statement and I 
listened to Senator Biden and others and I think they are 
right, we need to do more, I think our credibility is at stake, 
we have a government there we obviously can work with, and I 
want an action program to step up the U.S. and the 
international involvement to try to address some of these 
pressing issues that exist there and to make sure that a 
military operation which by all estimation was a success, that 
we do not lose it, what action program would you have for the 
President?
    Suppose he said, I think the Congress would give me more 
money. They obviously have indicated as much. They have passed 
this authorization act. We are falling far short of it. I think 
that is correct. You are nowhere near the authorized figures, I 
think, in your efforts. And the President said, What is your 
significantly upgraded action program to try to make sure that 
we get the stability and reconstruction and reform in 
Afghanistan? What would you put forth?
    Mr. Rodman. We are asking ourselves the same kind of 
question all the time. Our policy has evolved over the past 
year. We have talked about the Provincial Reconstruction Teams, 
which are meant to address a need that a lot of people thought 
was not being addressed. That is a concept that can expand to 
do the job of supporting stability.
    The Afghan National Army is clearly the priority. It is a 
priority of President Karzai; it ought to be one of our main 
priorities. We have contractors looking at that training 
program constantly to see how we can expand that training 
program.
    As I say, one of the limiting factors had been getting 
recruits and part of our job is to work with the Afghans to 
make sure that the Afghan leaders, both in Kabul and around the 
country, are cooperating with----
    Senator Sarbanes. How much are they paid, those recruits?
    Mr. Rodman. I do not have the exact number, but I am told 
that it is a salary that is competitive with other things.
    Senator Biden. If the Senator will yield----
    Senator Sarbanes. How much is it? I mean, you are the 
Department of Defense. You are involved.
    Senator Biden. It is $50.
    Mr. Rodman. It is $50 after they graduate, $30 while they 
are in training.
    Senator Biden. And the guy who sweeps the barracks floor, 
according to Green Berets we have talked to, gets paid more 
money. A U.N. driver gets paid considerably more money. It is 
not competitive.
    Senator Sarbanes. I think you responded----
    Senator Biden. I think I interrupted you.
    Senator Sarbanes. No, that is all right.
    Mr. Rodman. Those are the numbers. I asked the same 
question myself when I was visiting CENTCOM a few months ago. 
Their assessment was that the salary was drawing recruits and 
it now clearly is drawing recruits. The most recent battalion 
was at full strength. The seventh battalion, the number of 
candidates is over what they sought. So the recruiting, the 
number of recruits, is not the obstacle to the same extent it 
was at the beginning.
    Senator Sarbanes. Well, are you getting the kind of 
recruits you want? I have the impression that this is a 
situation in which the commitment of some additional money, not 
in large amounts, can make a big difference. What is happening?
    All the external reports we get raise alarm and concern 
that this thing is not going to work, that it is going to fall 
apart on us. You all are responsible for making it work. When 
we meet we get kind of a defensive reaction to what is being 
done, and I am just kind of searching for some sort of positive 
vision of what can be done, of a further upgraded program to 
try to assure ourselves that this thing can be a success.
    Mr. Rodman. Let me finish the answer. The setting of 
salaries is something we do in consultation with the Afghans, 
and President Karzai has a hand in this. Our impression, 
rightly or wrongly, is that this is not the main obstacle right 
now. So you are right to ask the question what should we do if 
we had more resources. This may not be the missing piece.
    Senator Sarbanes. Well, can I get an answer out of--what 
would you do if you had more? I still do not have any answer as 
to what you would do if you had a significantly upgraded 
program.
    Mr. Johnson. I think we are----
    Senator Sarbanes. What needs to be done?
    Mr. Johnson. I think we are on the right track. If there 
were no need to make decisions, if money was never a scarce 
object, we would of course accelerate what we are doing.
    With respect to the salary levels for these individuals, 
Senator Biden is correct. If anyone has a foreign language 
skill and is employable by a funding NGO or the United Nations, 
they command a very high salary level compared to those who do 
not. So in the marketplace this is bringing people in.
    I was in Afghanistan about 3 weeks ago, observed a live 
fire exercise from these troops who had been trained, and the 
military people who were with us--I do not count myself an 
expert in this, but they were very impressed with what they had 
been able to do with these troops in a very short period of 
time. They are being formed into two brigades, in the course of 
the next couple of weeks will be providing we believe a force 
that is available to President Karzai as commander in chief, 
and this is very much moving in the right direction.
    Senator Sarbanes. Well, Mr. Chairman, I see my time is up. 
I would just note I did not get an answer to my question. 
Neither of these witnesses was able to lay out to the committee 
any sort of view or vision of what they might do if you really 
stepped up the American and the international commitment in 
Afghanistan in order to address these problems.
    I thought I gave you an easy hypothetical. I mean, I tried 
to structure it with the President calling you in and saying he 
is ready to respond to what Senator Lugar and Senator Biden and 
others have been saying; what is the action program? I did not 
get any response to that question.
    Thank you.
    The Chairman. Thank you.
    Yes, Mr. Rodman.
    Mr. Rodman. Just to add a point. A lot of the challenges we 
wrestle with from day to day are not resource problems. A lot 
of them are political challenges--for example, making sure that 
the defense establishment is not dominated by a particular 
group. There are issues of political structure and political 
stability which we wrestle with all the time. Maybe that is why 
I did not have an answer how to spend the money if you were 
generous enough to give us more money, because a lot of the 
issues are about political balance, political reconciliation, 
making sure the central government and its institutions are 
functioning properly.
    The Chairman. Thank you very much. I am going to make 
this----
    Senator Sarbanes. Let me just make this observation. I 
think if the administration had a well thought through approach 
and were to request the Congress for additional money, they 
would get the additional money, and I just want to underscore 
that.
    The Chairman. I thank the Senator.
    I just want to make a short comment and then I will turn to 
my distinguished ranking member, Senator Biden. It seems to me 
as I have listened to the reports since September 11 and onward 
on Afghanistan, both in front of witnesses like yourselves and 
behind closed doors, an evolution of thinking has occurred. And 
I would trace it, just as a personal comment, in about this 
way.
    I think Senator Biden is probably on track in trying to say 
that it is very difficult to have the plan or the vision that 
Senator Sarbanes asked of you today without our government 
having come to a definitive policy of what we hope for in the 
country. I do not think we have gotten to that point. So my 
advice to the President or to anybody else was that we need to 
do that.
    It is still a work in process and it has been on an ad hoc 
basis really from the beginning an emergency. What our 
committee has been trying to think through with Secretary 
Powell last week is the fact that American diplomacy is an 
extremely important component, not only of Afghanistan or any 
other situation, but of all the ways in which we try to bring 
together coalitions with allies, as well as public policy in 
terms of administration of humanitarian, financial, business 
affairs.
    Secretary Rumsfeld has said much the same sort of thing 
when he is questioned closely by Senators. And that is that the 
military has an important role. It was to go to Afghanistan 
with Special Forces or other people, to work with the Northern 
Alliance, to work with the Afghans, to repel the Taliban, and 
to root out al-Qaeda.
    But then Secretary Rumsfeld very rapidly realized that he 
feels he is being saddled with the thought of administering the 
country, administering relations with all the surrounding 
countries--in other words, the same sort of problems that Dr. 
Cordesman raised yesterday with regard to our thinking about 
Iraq.
    It will be one thing to have a well-executed military plan 
if we or others are called upon to do this, and we are 
confident that it will be successful. But the interim problem 
of what happens as people begin to fight each other or they 
starve or they have all kinds of needs requires a huge amount 
of planning that flows right along with the military planning. 
Well, we did not have that option in Afghanistan, and so we 
have been improvising with our allies and with ourselves.
    But it appears to me that, even if we are getting better at 
it, we really have to define more of the goalposts or what we 
are about here, and I hope that we will do it. That is one of 
the purposes of the hearing today, to not only jog the memory 
of where we are, but likewise how we got there and some success 
story.
    Now, I started this morning by pointing to the intrusion of 
other powers into Afghanistan. Not unusual--the history of the 
country. The real option is will there be a different history 
for Afghanistan, and I hope that there will be. I think that we 
have in the United States, with our allies and with our 
diplomacy, an opportunity to make a historic situation come 
true for the people of that country, and they clearly want it 
to come true, as we are going to hear from the Ambassador from 
Afghanistan in the next panel.
    Here is a gentleman, a patriot of Afghanistan, a citizen of 
our country for a long time, as are many people from 
Afghanistan, who have risen to the occasion now to serve 
because they appreciate the historic opportunity for a 
breakthrough, as we do.
    But this is going to take some doing. So I will not hector 
you with more questions as to why we have not done more, why 
your vision is incomplete. That may be true for all of us. 
Maybe we have some responsibility in this committee, in the 
Senate, and with our colleagues to help fashion this, and we 
tried in a way by authorizing money. And in due course this 
requires an administration prepared to spend the money, to 
flesh out the programs.
    Perhaps our fault was failure maybe to have more mandates, 
to be more specific, to write the plan, to write the vision. 
That I do not think is our role. The President ought to do that 
as well as the Secretaries of State and Defense and others. But 
ultimately somebody has to be in charge.
    I get back to one of our themes yesterday. One of our 
witnesses suggested that the President of the United States as 
the Commander in Chief and maybe Secretary Rumsfeld then as the 
boss of General Franks would be the ultimate authority in Iraq. 
But General Franks will not be able to administer Iraq 
indefinitely. There will have to be somebody else, and an 
extensive structure beyond that. Who are the Assistant 
Secretaries?
    That we have not thought through as a country and we must, 
quickly. We never thought through it in Afghanistan and I would 
suggest there is a good opportunity to do so even now. That is 
a personal opinion sort of arising from listening to some 
people who have thought a lot more about this than I do and 
have had a lot more experience in the field.
    But once again, I appreciate your coming today and the 
reports that you have, and I think the assessments of all of us 
have been that remarkable things have occurred and would not 
have without United States leadership. But at this point we 
still have a distance to go to define what we want to do and to 
find the means, the allies, and the structure within our own 
government to administer it.
    Senator Biden.
    Senator Biden. Thank you, Mr. Chairman.
    Gentlemen, please do not take my frustration personally. My 
frustration has existed from this time a year ago in Bagram to 
today, and I have seen--and I can say this without 
equivocation, without fear of being contradicted, and there is 
no way you could have seen this. I have seen the transition, to 
use the popular phrase, a morphing of the policy. You know as 
well as I do--and it is a legitimate position--that there are 
senior administration officials who believe that--and I will 
quote one--that Afghan is ``ungovernable, it has never been 
governable,'' it is a polyglot--my word; so far it is a quote--
``ungovernable, it has never been governable,'' and the idea 
that we can govern it or set up a central government that is 
going to be capable of governing it is an unrealistic 
expectation. And therefore--and this is a legitimate position--
it is in our interest to see to it that ``the center,'' quote--
it is not even the center, but Kabul--is stable, that it has a 
relationship with the rest of the country, not a dominant 
relationship in the sense that it is the central government, 
but it is the titular center of the State, where you have 
replacing in effect the Governors of the various provinces 
individual warlords who are able to maintain security in their 
region, the underlying premise being if they gain security in 
the region it is unlikely that the swamp can fill back up again 
and we will have a reenactment of what happened before, that is 
the Taliban in control, because the Taliban did control. They 
did a pretty good job of controlling the whole country and 
subsuming the warlords in most cases to their will. But that is 
not what our announced policy is.
    I do have a few specific questions, but that is my 
frustration, our announced policy not mirroring our actions. 
ISAF. I sat for a couple hours with the previous commander of 
ISAF over a year ago in a tent outside of--actually, it was in 
the city limits of Kabul. Very impressive guy, General McCall, 
a Brit.
    And he went on, along with two American liaisons, a 
colonel, two American colonels, one, if I am not mistaken, in 
Kandahar--I mean, excuse me, one, if I am not mistaken, from 
Bagram and one from Kabul. But they were assigned liaison to 
ISAF. And McCall was just staffing up his force. He was at 
about 1,700, 1,800, going to 4,000, I think the number was. I 
cannot recall the exact number. And they gave me a very 
detailed brief.
    And I said, well, you need to expand ISAF beyond. And I am 
not going to attribute, because I do not want to get anyone in 
trouble, I am not going to attribute what I am about to say to 
any one person. But I can say to you there was the consensus of 
all the military personnel representing more than one country 
sitting in that tent. You are going to have to extend ISAF 
beyond Kabul. Uniform view? Absolutely, yes.
    I turned to McCall and I said, are you--is your government, 
your parliament, going to allow you to stay. And I remember 
what he said. He said, ``If the big dog is not in the pen, the 
small dogs are not going to be there.'' He said, ``Are you 
going to stay?''
    Now, what ``stay'' meant--remember the discussion that took 
place, Mr. Rodman, about a year ago? The discussion was would 
we provide intelligence, would we be the source for all the 
intelligence or the primary source of intelligence for ISAF, 
would we supply for ISAF as well the lift capacity, and would 
we be the guarantor of extraction? They were the things we were 
discussing and debating.
    I came back and talked with my friend Senator Hagel about 
this, talked with a number, John McCain, others who had been in 
and out. And the question was and the debate was: Was our 
military ready to make, in effect, that guarantee without us 
having boots on the ground with ISAF?
    And I remember talking about that at length and being 
told--and there was a debate that ensued between State and 
Defense as to the efficacy, the utility, the wisdom of 
expanding ISAF, and it was a relatively hard-fought debate. 
State was saying, you got to expand. They are not saying that 
now. And Defense was saying, do not sign us up to that, for the 
reason my friend from Indiana the chairman said: Do not make us 
the lord and master of the whole area and take on the whole 
responsibility.
    So then I later heard: Well, you know, the other countries 
will not expand, they do not want to expand. Sure they will not 
expand. They were not guaranteed that we would be part of the 
operation. They were not guaranteed that we would meet the 
three missions. We said: Look, do not worry; we are still in 
the country; we have got 4,000 forces still in the country. And 
they said: That is not good enough; are you in on the deal? You 
the United States, are you committing your forces, your 
resources, your guarantee that if we are up against it you will 
be the ones to come in.
    The Brits do not, NATO does not have the capacity to lift 
into that region without us.
    To the best of my knowledge--I may be mistaken. I ask Dr. 
Blank behind me to correct me if I am wrong, but we never gave 
that guarantee to the best of my knowledge.
    So now we are told that no one wants to expand. We also, as 
I remember--I do not want to implicate my good friend the 
chairman here. If I am not mistaken, he and I both wrote a 
letter or asked the President to be able to see him for the 
sake of NATO unity, to suggest to him that the advice he was 
getting of not accepting front end, unrelated to ISAF, 1,000 
German crack forces that Schroeder risked a vote of confidence 
on wanting to deploy and I think it was 3,000 French, was it? I 
cannot remember the numbers. And Defense said, ``No,'' thank 
you, we do not need them.
    We importuned the President to say: Whether you need them 
or not, take them, because these guys just declared an article 
5. These guys said--the French newspaper La Monde said, ``we 
are all Americans,'' and now you are telling them: ``We do not 
need you.''
    So now we are at a point where the argument is being made 
to folks like me, when I say why are we not expanding it, the 
White House says, ``Well, no one else wants to expand.'' So 
that is a long prelude to a short question. Mr. Rodman, Mr. 
Secretary: If you know--and you may not know; it may be an 
unfair question to ask you, and if it is you just tell me and I 
will seek an answer from Defense--is the United States prepared 
to guarantee lift, intelligence, and extraction if our NATO and 
other allies are prepared to expand the ISAF force beyond Kabul 
into other regions? Do you know the answer to that question?
    Mr. Rodman. It is a hypothetical question because we have 
never engaged in a negotiation with our allies on an expanded 
ISAF----
    Senator Biden. Oh, yes, we did, unless they have 
misrepresented to me.
    Mr. Rodman. Let me start by separating two issues.
    Senator Biden. OK.
    Mr. Rodman. The commitments you have recited are 
commitments we have made to ISAF with respect to their present 
mission----
    Senator Biden. Right.
    Mr. Rodman [continuing]. Intelligence, emergency 
extraction, and lift, to help them with lift as available and 
as needed. Now, with the Turks in fact we and the British 
helped them hire lift; it does not have to be American lift. So 
certainly in the Turkish case, we fulfilled the commitment to 
help.
    On the expansion issue, I have to say I have been involved 
in these discussions with the successive ISAF commanders and 
talked to the Europeans and asked them at various times when 
there was a debate here about expansion outside of Kabul: Is it 
a good idea? And when I was asking, I was asking the question 
in an open way I got a negative reaction from the military 
personnel of other countries that I talked to.
    At the policy level we never reached the point of engaging 
in a negotiation or trying to push them to do it or push them 
from another direction.
    Senator Biden. But in fairness, did we not publicly say we 
would not, we would not make those guarantees?
    Mr. Rodman. Secretary Rumsfeld has hedged. He has tried for 
many months to be more agnostic and to point correctly to the 
fact that we were not getting a positive response or interest 
from others.
    I can also tell you that the Turks made it a condition of 
their taking over the lead that they would take no 
responsibility outside of Kabul, and the Germans and Dutch 
similarly. And that is where we are. Now, we never pushed it 
because we were looking for alternative ways of addressing the 
same problems that ISAF expansion was meant to address.
    Senator Biden. I will not beat a dead horse, but I will get 
from the record the early statements, if my memory serves me 
correctly, of the Secretary of Defense about expansion of ISAF, 
before we had any discussions with anybody, about our 
unwillingness to be part of it, our unwillingness to make any 
guarantees. Now, I will let the record correct me if I am wrong 
about that, but I will get that information.
    If I may make just one last point and a very short 
question. My understanding--now, this is about--so this is 
almost 5 months old, what I am about to say, first-hand 
knowledge. It is my understanding that one of the reasons why 
we were having trouble initially recruiting the first two 
classes of Afghan integrated military under the control of Mr. 
Karzai was not the money--the money was a problem, it still is 
a problem; I will be interested what the Ambassador thinks--but 
was that the warlords who control the bulk of those fighters 
who have a capacity to command were very unwilling to give up 
their best and wanted to keep the bulk of their force structure 
in place.
    Initially we were actually getting people out of mental 
hospitals and they were emptying institutions the first time 
out, I am told by one Green Beret who was doing part of the 
training. This was the first time out, when we were trying to 
fill up the difference between what we needed to fill the first 
classes and the difference between what was sent to us and not, 
because if I understand it--it is a two-part question: No. 1, 
is the way in which U.S. military trainers and others get these 
forces is that they are sent--we seek support from the Tajiks, 
from other, from the Northern Alliance, from the various 
warlords, to suggest sending, so we have a multi-ethnic 
military? And No. 2, is there a--well, I will just stick to 
that. Is that how we get them? Is that the place from which 
they come, or is it a recruiting poster hanging on a storefront 
in Kandahar? How do we get these folks?
    Mr. Rodman. I think it is a combination of these things.
    Mr. Johnson. The regional Governors are the ones who have 
been responsible for providing these recruits, and I have not 
heard exactly the anecdote that you ascribe to the first 
individuals who were provided, but I think it is clear that, at 
least with some of these people, we were being tested as to 
what we were up to.
    I think there was also a questioning on the part of some of 
these people who were leaving their homes and potentially 
taking part in this as to just what they themselves might be 
getting into. I think as these people have shaken out, even the 
early ones, the ones that we retained have proven to be capable 
individuals, capable of education.
    There is not a dearth of individuals who can become 
soldiers in Afghanistan, able-bodied people. So it is not as 
though we have to take people out of a militia army, if you 
will, and bring them into this army. We were quite happy with 
able-bodied individuals what were capable of learning, and so 
we are looking for that.
    We have worked a long time on the recruitment process and 
we have had various models that have been offered to us. The 
Defense Commission, which is beginning to show some real 
activity and productive capacity in Afghanistan, has now taken 
on this responsibility and, I think at least in part because of 
that, we are seeing these battalions come in at full strength.
    Senator Biden. I will followup with some questions. I thank 
you for your answer. I have some more detailed questions. I 
will followup in writing. I appreciate both of you being here 
and your testimony.
    The Chairman. Thank you, Senator Biden.
    I want to move on fairly soon to the Ambassador, but, 
Senator Hagel, you have just a question?
    Senator Hagel. I have two short questions. Thank you, Mr. 
Chairman.
    Could either of you tell the committee who now provides the 
security detail for President Karzai?
    Mr. Johnson. Senator, I happened to be in Afghanistan this 
summer when we made this offer to President Karzai. The Special 
Forces, because they were on the ground, moved in rapidly to 
take this responsibility over. In the fall, the Bureau of 
Diplomatic Security, working with a contractor, took this 
responsibility from the Special Forces.
    They have done a multiple set of jobs. They began providing 
the direct security immediately upon taking over from the 
military. They began a process of providing a range of security 
upgrades to the compound for perimeter security so that it 
would be less susceptible to threat to President Karzai. They 
have already begun a process of training Afghans to take over 
this responsibility eventually.
    So it is a multi-phased project, but we have dedicated 
significant funds to it. As late as yesterday, we got a report 
from our embassy in Kabul that President Karzai was not only 
quite pleased with what had been done, but he was especially 
pleased with what he had observed as to the Afghans who are 
being trained eventually to take over this responsibility.
    Senator Hagel. When do you think that will occur?
    Mr. Johnson. Sir, the training is ongoing. I do not want to 
put an X on a calendar. I think we want to see how this 
develops and make sure that we do not do it prematurely. We are 
committed to doing this right.
    Senator Hagel. I would suspect that has a direct effect on 
the attitude and the evaluation and the confidence that an 
Afghan army would instill in the people in Afghanistan, if in 
fact that security force is Afghani and can protect an Afghani 
President, rather than outside forces. Would you connect that?
    Mr. Johnson. Well, as I have said in response to a number 
of questions here, our model, our objective, is to build the 
Afghan State. So we want to train Afghans in all capacities, to 
provide assistance to them. Yes, I would agree with you that 
having Afghans provide security for their President is the 
objective that we and they want to secure.
    Senator Hagel. A last, very brief question. On the 
Provincial Reconstruction Teams, we do not need to go into it 
now because the chairman wants to move on, but would you 
provide the committee a budget for those? What kind of 
resources are you dedicating to those teams, and break it down 
specifically, security, reconstruction, all the things you 
generally touched in your testimony, so how much money are we 
dedicating to those teams? Thank you very much.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Hagel.
    Do other Senators have any further questions?
    If not, we thank you both very much for your testimony and 
for coming to us today.
    The chair would like to now call to the witness table 
Ambassador Ishaq Shahryar, Afghanistan's Ambassador to the 
United States.
    Ambassador Shahryar, we are delighted that you have been 
able to be with us today. You have benefited, as we have, by 
hearing testimony from our Department of State and our 
Department of Defense, parts of our government that are clearly 
charged with many responsibilities, and we have been discussing 
their successes and likewise the challenges and parameters at 
least we seek for them.
    We look forward to your testimony as someone who has a 
responsibility on behalf of his country, looks at all of this 
perhaps in a different perspective, although sometimes the 
same, as you have visited widely with colleagues in the Senate 
and the House, as well as obviously you have worked with the 
administration.
    We welcome you and ask for your testimony this morning.

STATEMENT OF HON. ISHAQ SHAHRYAR, AFGHANISTAN AMBASSADOR TO THE 
                    UNITED STATES OF AMERICA

    Ambassador Shahryar. Thank you very much. It is a great 
honor to be with you today and to share some thoughts about the 
vital work and progress in Afghanistan. I feel particularly 
honored since I understand that only on rare occasions you seek 
the views of the Ambassador of a foreign country.
    I believe that, given the heroic investment of American 
dollars and American lives in the liberation and rebuilding of 
Afghanistan, it is appropriate that you have a progress report 
directly from the beneficiary.
    I have a written statement that I would like to place in 
the record.
    The Chairman. It will be published in full in the record.
    Ambassador Shahryar. Thank you.
    In my summary remarks, I would like to begin by thanking 
you, Mr. Chairman, for the invitation to appear today and for 
your thoughtful vision for an Afghan Enterprise Fund that will 
be critical for Afghanistan's journey and arrival. I also wish 
to thank Senator Biden for his consistent voice of support 
through our early months of liberation and rebuilding and for 
his particular focus on the plight of women in Afghanistan.
    I believe there can be redemption through suffering. In 
Afghanistan the world saw the systematic brutalization and 
discrimination against women by the Taliban and was horrified. 
I believe that this moved leaders of the world and leaders in 
this chamber to mount a renewed effort to end all forms of 
discrimination against women in all nations of the world. To 
achieve that lasting end would indeed serve to redeem the 
suffering of so many women in Afghanistan.
    I also wish to thank you, Senator Hagel, for your 
leadership in sponsoring the Afghanistan Freedom Support Act 
and to thank all the members of the Senate Foreign Relations 
Committee for their generous support of Afghanistan.
    On behalf of President Karzai and the Afghan people, I wish 
to thank President Bush and the leadership of his 
administration for our liberation. We are a grateful nation. 
There is also a long list of men and women in the military and 
many others from U.S. Government agencies, especially USAID, 
and in private companies who have embraced the cause of freedom 
in Afghanistan whom I would dearly like to say thank you.
    I would like to begin with a simple observation. The 
official name of my country is the Transitional Islamic 
Republic of Afghanistan. ``Transitional'' is a key word. We are 
a work in progress and this work occurs in the context of 
history and in the context of regional instability.
    Two decades ago a very bright professor named Brzezinski 
referred to our region in the Middle East, the north and west 
side of the great Hindu Kush Mountains that divide Asia from 
Europe, as the ``arch of instability.'' In recent years, 
without question that arch has become a ``circle of 
instability,'' matched by an arch that extends across Pakistan, 
India, Bangladesh, and reaches as far as Indonesia. At the 
center of this circle is Afghanistan.
    But this is not new. This is history repeating itself. For 
4,000 years, Afghanistan has been a portal for history--more 
than just a crossroads; a portal. For all of human history, 
overland travel from Europe or the Middle East to Asia could 
only pass one way, through Afghanistan and the Khyber Pass. 
Ghenghis Khan, Tamerlane, Alexander the Great, to name a few, 
crossed Afghanistan and left their mark on Afghan government, 
arts, and sciences. Others of course entered and occupied 
Afghanistan, but were not so benevolent.
    I offer this brief history lesson to suggest the following. 
Afghanistan is literally the moral ``high ground'' of history. 
Control the Afghanistan high ground and you will influence for 
good or for evil that which flows into Europe and into Asia.
    If the Western world has a lapse of attention and turns 
elsewhere, the institutional memory of the region will reach 
back into a weak Afghanistan with drugs, corruption and terror, 
and invariably the circle will turn toward conflict. If the 
Western world sustains support and stays focused until 
democracy and prosperity are firmly rooted, then Afghanistan 
will become a hub, a hub for the wheel of regional stability, 
democracy, prosperity, that will become self-sustaining.
    This is not theory. It is a model and a replay of recent 
and successful deployment of U.S. and international will on a 
smaller scale. I invite you to compare landlocked, 
impoverished, but historically significant Afghanistan to that 
of landlocked, impoverished, but historically significant 
Macedonia. As you know from history, Macedonia in many ways is 
the historic portal that connects Europe with the Middle East 
in the same way that Afghanistan is the portal that connects 
Asia and the Middle East.
    There in Macedonia, for the first time ever, the United 
States and NATO very smartly deployed a military presence 
before conflict spilled into that historic tinderbox. Yes, 
there has been flashes of conflict in Macedonia, as flashes of 
conflict continue today in Afghanistan. But that historic 
center of Balkan instability was made secure and major conflict 
was avoided, a conflict that might have brought two NATO powers 
to blows.
    The analogy of that successful and modest investment holds 
for Afghanistan and the current circle of instability in the 
Middle East. Consider the following comment from Ahmed Rashid, 
which was mentioned earlier, writing in the Far Eastern 
Economic Review in an article titled ``A Desire to be Left 
Alone, Alone.'' In summary, it reads:
    ``Russia is arming one warlord, Iran another. Some central 
Asian republics are backing their ethnic allies. India and 
Pakistan are playing out an intense rivalry in the playing 
fields of Afghanistan.''
    This is pretty straight talk. It does not get more concise 
in describing what could reemerge or can be prevented if the 
United States and world community invest in the security and 
rebuilding of Afghanistan.
    We must hold firm to the principle that Afghanistan, like 
every other sovereign nation, is for the Afghan people and not 
the playing field for regional rivalries, and that is what 
President Karzai with his Kabul Declaration is trying to do so.
    The people of Afghanistan have turned to President Karzai 
as the one person who is truly able to unify Afghanistan and 
turn the nation from a past filled with war and oppression to a 
future focused on prosperity and democracy.
    We began our future last year, flushed with liberation. The 
greys and blacks imposed on us by the Taliban are now being 
replaced by color. Our men can again play music, our women and 
girls are returning to schools, and our children can fly a kite 
again.
    You have seen these things on CNN. You also know that we 
have a long way to go. One of five children born today will not 
reach the age of 5 years. One in ten Afghan women will die in 
childbirth, leaving her other children as orphans. Of 
Afghanistan's 27 million people, the United Nations estimates 
that nearly a quarter are refugees, and Afghanistan is the most 
heavily mined country in the world and, as is the case in other 
war zones, children at play will become the victims of leftover 
land mines.
    Addressing the humanitarian issue, the security issue, the 
rebuilding issue, and the economic development issues are not 
simple. It has meant an international collaborative effort, and 
the date this multinational collaboration is working and 
working better than perhaps any comparable effort since the 
Marshall Plan. In many ways Afghanistan for the moment still 
lingers in a honeymoon period, where we are designing and 
building a new nation from a clean sheet of paper.
    In the immediate post-Taliban defeat in Afghanistan, there 
were no universities, no army, no police, no TV, no newspaper, 
no banking system, no judiciary, very little food, and even 
less in the way of health care, the only thing in abundance--
guns and land mines.
    We established a triage plan to urgently fill institutional 
vacuums and quickly moved to right the most terrible wrongs of 
the Taliban, such as immediate administration of free elections 
and restoration of women workers and students to their pre-
Taliban positions. Today women constitute over 50 percent of 
civil servants and teachers.
    Those were tangible acts of immediate reform, but there are 
urgent needs under the heading of cultural reconstruction. The 
reestablishment of a national sense of identity, that will take 
longer. For 20 years the moral compass of our nation has been 
spinning like a top. Today we are telling our children that 
most of what they have known has been wrong, that in the 21st 
century open societies, freedom of thought, freedom of speech, 
freedom of commerce, freedom from want, fear and intimidation 
is where the world is going and this is where Afghanistan must 
go, too.
    But for us to do that while living in the center of the 
circle of instability will require significant support. The 
landmark Afghanistan Freedom Support Act that originated in 
this committee provides a strategic framework for U.S. policy 
on the political and economic development of Afghanistan. We 
respectfully urge the Congress in this appropriation cycle to 
fully fund the Afghanistan Freedom Support Act.
    I also ask this committee to continue to support the 
expansion of ISAF and I hope that the administration will make 
every effort to press American friends and allies to join in 
this effort. Afghanistan's internal security remains fragile. 
Noninterference from our regional neighbors is key and the 
expansion of ISAF and the establishment of a national army will 
support noninterference and demonstrate international support 
for the central government, weaken the influence of regional 
leaders and their personal armies, speed reconstruction and 
economic recovery, increase the confidence of private 
investors, will promote stability and our ability to form a 
national army that needs to be trained at a faster pace and 
bigger size.
    The expansion of ISAF is good for all of the Afghan people, 
who have known only war for the last generation. It will also 
help finish the job of extinguishing all vestiges of the 
Taliban and al-Qaeda in Afghanistan, so democracy has a chance. 
All nations stand to benefit from new elements of stability in 
the Middle East, from any source.
    Yes, the situation in Iraq is a very serious problem and 
should be dealt with. But let us also secure the victories that 
we have already won, and the best way to secure our victory in 
Afghanistan is to secure democracy and build prosperity. We 
have the basic elements for building wealth in our nation. We 
have natural resources and they need to be mapped and 
thoughtfully developed. We are located in a strategically 
important location in Central Asia. There can be a logistics 
and transportation industry in our future and we have an 
entrepreneurial tradition.
    But these elements will never be organized and mastered 
independent of peace and security and a business plan. We have 
recently created a private sector development task force for 
Afghanistan to accelerate capacity-building and institution-
building of the Afghan Government and strengthen 
infrastructure. We are working to write laws and protect 
private investment. We are setting up private banks, getting 
started with exploiting our natural resources, and later this 
year we will host an international trade show in Kabul, and you 
are hereby invited to attend.
    In closing, I hope I have offered a useful assessment of 
where we are and where we hope to go. But I must be candid: We 
are not there yet.
    My summary concerns cover five points: One, we urgently 
request funding support for fiscal year 2003 to meet the levels 
in the Afghanistan Freedom Support Act.
    Two, we support the expansion of the current 4,800-member 
ISAF force to at least three times that level, with these 
forces to be stationed around the country, not just in Kabul.
    Three, work with the Tokyo donors and the international 
financial institutions to apply as quickly as possible the 
pledges made during the Tokyo Round.
    Four, wherever possible reconstruction funding should be 
directed to the central government under President Karzai to 
reinforce its national reach.
    Fifth, encourage the return to Afghanistan of the many 
dedicated citizens of Afghan origin in the United States who 
want to return to our country to help in the rebuilding effort. 
But again, this help should not be viewed as altruism by the 
U.S. or world community. The return to the United States and 
global security will be commensurate with the investment.
    President Karzai and I are passionately determined not to 
squander this moment in Afghanistan history. Afghans are a 
remarkably resilient people and a proud people, proud to learn, 
proud to do a good job. As Churchill widely stated, ``give us 
the tools and we will get the job done.''
    Thank you for your attention and I will be most happy to 
take your questions.
    [The prepared statement of Ambassador Shahryar follows:]

   Prepared Statement of Hon. Ishaq Shahryar, Afghanistan Ambassador
                    to the United States of America

             the restoration and rebuilding of afghanistan
    It is a great honor and to be with you today and to share some 
thoughts about an important, perhaps even vital, work in progress in 
Afghanistan.
    Given the heroic investment of American dollars and American lives 
in the liberation and rebuilding of Afghanistan it is most appropriate 
that you have a progress report direct from the beneficiary.
    And that is what I will provide here today--with the overarching 
theme that America's investments in Afghanistan are commensurate with 
the returns--greater progress in the war against terrorism, enhanced 
regional and global security--and with enhanced security comes enhanced 
economic growth.
    I wish to thank you, Chairman Lugar, for the invitation to present 
testimony this morning, and to thank you for your thoughtful vision of 
what Afghanistan can become, and your support for an Afghan Enterprise 
Fund--that will be critical for our journey and arrival.
    I also wish to thank you, Senator Biden--for your consistent voice 
of support through our early months of liberation and rebuilding--and 
for your particular focus on the plight of women in Afghanistan.
    I believe there can be redemption through suffering. And in 
Afghanistan, the world saw full force--the systematic brutalization and 
discrimination against the women by the Taliban gangsters--and was 
horrified.
    I believe that these revelations moved leaders of the world and 
leaders in this chamber to mount a renewed effort to end all forms of 
discrimination against all women in all nations of the world--and to 
achieve that lasting end, would indeed serve to redeem the suffering of 
so many women in Afghanistan.
    And I also wish to thank you, Senator Hagel, for your leadership in 
sponsoring the Afghanistan Freedom Support Act authorizing $3.3 billion 
in economic, political, humanitarian and security assistance for 
Afghanistan during the next four years.
    And while I have the microphone, on behalf of President Karzai and 
the Afghan people I wish to thank the members of this Committee, the 
Members of the U.S. Senate and the House, Secretaries Powell and 
Rumsfeld, their senior staff, and of course President Bush--for 
liberation.
    We are a country the size of Texas and we have a great deal to be 
thankful for. We are a grateful nation. And there is a long list of men 
and women in the military, our government agencies, NGOs and private 
companies--who have embraced the cause of freedom and restoration in 
Afghanistan, and I would dearly like to thank--but it would consume all 
my time this morning.
    Instead, I would prefer to turn to the actions and plans in place 
and going forward that will bring lasting and positive change to the 
region--and best represent the gratitude of the Afghan people, for 
those who have invested so much there.
    I would like to begin my remarks with a simple observation--and to 
present and context for this hearing.
    The observation: The Official Name of my Country is ``The 
Transitional Islamic Republic of Afghanistan.'' ``Transition'' is a key 
phrase and umbrella theme for my remarks this morning.
    We are a work in progress--and in a context--the context of history 
and the context of regional instability.
    Two decades ago a very bright professor named Brezinski, referred 
to our region in the Middle East--the north and west side of the great 
mountains that divide Asia from Europe--As the ``Arch of Instability.''
    But in recent years--without question, that arch has become a 
Circle of Instability--matched by an arch that extends across the 
southern and eastern side of the mountainous continental fence--and 
includes Pakistan, India, Bangladesh and even as far as Indonesia.
    At the center of this circle--is Afghanistan. Afghanistan is at the 
center of today's ``Circle of Instability.''
    But this is not new. It is history repeating itself. For 4,000 
years, Afghanistan has been a ``portal'' for history . . . more than 
just a crossroads . . . a portal.
    For all of human history, overland travel from Europe or the Middle 
East to Asia could only pass one way--through Afghanistan--and through 
the Kyber Pass.
    Ghengis Kahn, Tamerlane, Alexander the Great, to name a few--
crossed Afghanistan and left their mark on Afghan government, arts and 
sciences.
    Others, of course entered and occupied Afghanistan as well--but 
left behind only destruction and chaos. In our generation, it was the 
Soviets in the 1980s, and the Taliban of the 1990s.
    I offer this brief history lesson--to suggest the following:
    Afghanistan is literally the ``high ground'' of history.
    Control the Afghanistan high ground, and you will influence for 
good or for evil--that which flows into Europe and into Asia.
    If the Western World has a lapse of attention and turns elsewhere, 
the ``institutional memory'' of the region will leach back in to a weak 
Afghanistan with drugs, corruption, and terror--and invariably--``the 
circle'' will turn back toward terror and conflict.
    If the Western World sustains support--and stays focused and 
present until democracy and prosperity are firmly rooted--then 
Afghanistan will become a hub--a hub of wheel of regional stability, 
democracy and prosperity--that will become self-sustaining.
    This is not theory--it is a replay of another recent and successful 
deployment of U.S. and international will on a smaller scale--where 
foresight was acted upon--indeed the foresight of this Committee was 
acted upon--and conflict on a broad scale was essentially prevented.
    I invite you to compare the regional geopolitical situation of 
land-locked, impoverished--but historically significant Afghanistan in 
the Middle East and Asia--to that of land-locked, impoverished--but 
historically significant--Macedonia--in the Balkans.
    As you know from history--Macedonia in many ways is the historic 
portal that connects Europe and the Middle East--in the same way that 
Afghanistan is the portal that connects Asia and the Middle-east.
    There, in Macedonia, for the first time ever--The U.S. and NATO--
very smartly--deployed a military presence BEFORE conflict spilled into 
that historic tinderbox.
    Yes, there have been flashes of conflict in Macedonia--as flashes 
of conflict continue today in Afghanistan. But that historic ``Center 
of Balkan instability'' was made secure and regional conflict was 
avoided--a conflict that might have brought two NATO powers to blows.
    The analogy of that successful--and modest investment--holds for 
Afghanistan and the current Circle of Instability in the Middle East.
    Consider the following comment from Ahmed Rashid writing in the Far 
Eastern Economic Review in an article titled: A Desire To Be Left 
Alone--with a tagline:

          ``Afghanistan's power-hungry neighbors threaten to revive the 
        ruinous civil war of the early 1990s that gave rise to the 
        Taliban.

          ``Russia is arming one warlord, Iran another. Wealthy Saudis 
        have resumed funding Islamic extremists and some Central Asian 
        Republics are backing their ethnic allies. India and Pakistan 
        are playing out an intense rivalry as they secretly back 
        opposing forces. The playing field is Afghanistan, and the 
        interference threatens to revive a multifaceted power struggle 
        that in the early 1990s eventually gave way to a near-ruinous 
        rule by the Taliban.''

    This is pretty straight talk.
    It doesn't get more concise in describing the cycle of the 1990s--
and what could re-emerge--OR--can clearly be prevented if the U.S. and 
world community remain invested in the security and rebuilding of 
Afghanistan.
    Perhaps it is a stretch to ever envision Afghanistan as a 
``Switzerland of the Middle East.'' But I find it useful to think in 
those terms.
    We must begin with the premise that Afghanistan, like every other 
sovereign nation--is for the Afghan people--AND NOT the playing field 
for regional rivalries. And we must begin with this premise and hold 
firmly to it.
    The institutional memory in the region that reaches back 4,000 
years. And regrettably that institutional memory favors dictatorship 
over democracy--and economic suppression over economic prosperity.
    And the bad habits that go with that history also include devoting 
resources to developing nuclear, chemical, and biological weapons to 
enforce repression--at the expense of economic opportunity and 
prosperity for people.
    Look at Iran and Iraq--two countries blessed with immense petroleum 
wealth--where people live in poverty.
    Repression is a medieval concept--that does not belong in the 21st 
century.

  <bullet> The denial of personal liberty removes transparency in 
        government that leads to corruption.

  <bullet> Corruption repels investment and economic development.

  <bullet> Poverty is the soil where terrorism takes root--and makes 
        the whole process of democracy, stability, and security 
        impossible.

    Now--I know that I am preaching to the choir here.
    These concepts are second nature to you. But there are novel--if 
not radical concepts to the 100s of millions of people in the Middle 
East and South Asia.
    I have heard some say that openness and democracy conflict with our 
Middle Eastern culture and tradition.
    Nonsense.
    It was Cyrus the Great of Persia who issued the world's first 
declaration of human rights.
    Yes, there have been periods of greatness in the Middle East. But 
to date, the ancient cultures have failed to translate themselves into 
modern times, because there has been no one to lead beyond the past--
with the knowledge and convictions that----

  <bullet> Theocracies fail;

  <bullet> Dictatorships fail; but

  <bullet> Democracy--somewhat more cumbersome to implement--works.

    But I believe, however, that the cycle of history in Afghanistan is 
being broken by leadership with a new vision.
    The people of Afghanistan have rallied to President Hamid Karzai as 
the one person who is truly able to unify Afghanistan, and turn the 
nation from a past filled with war and repression--to a future focused 
on prosperity and democracy.
    We began our future last year with liberation--and with the 
restoration of our spirit. For a country that has literally been 
reduced to rubble--it is our creative spirit and our culture that 
anchors our new beginning.
    To be frank--there is little else in our country that will hold an 
anchor.
    With liberation--we've had the opportunity to reclaim our culture--
our art, our music, our educational systems, our entrepreneurship--our 
freedom to create was given back to us. The grays and blacks imposed on 
us by the Taliban--are being replaced by color.

  <bullet> Our men can again play music.

  <bullet> Our women and girls are returning to schools.

  <bullet> And our children can again fly kites.

    You've seen these things on CNN. You also know that we have a long 
way to go:

  <bullet> 1 in 5 children born today will not reach the age of 5 
        years;

  <bullet> 1 in 10 Afghan women will die in childbirth--leaving her 
        other children as orphans;

  <bullet> Of Afghanistan's 27 million people--the United Nations 
        estimates nearly a quarter are refugees; and

  <bullet> Afghanistan is the most heavily mined country in the world. 
        And as is the case in other war zones--children at play, will 
        become the victims of left-over land mines.

    Addressing the humanitarian issues, the security issues, the 
rebuilding issues, and the economic development issues are not simple.
    It has meant an international collaborative effort--and to date, 
this multi-national collaboration is working--and working better than 
perhaps any comparable effort since the Marshall Plan.
                   rebuilding--cultural and tangible
    We have a rare and historic opportunity in Afghanistan--to change 
the course of a region that has triggered substantial global turmoil 
for the last generation, and been the focus of U.S. foreign policy for 
the last 18 months--and I dare say will be for the next 18 months.
    With respect to Re-building and Security Concerns I would like to 
briefly describe:

  <bullet> Where we have been;

  <bullet> The works in progress being crafted with the tools at our 
        disposal focusing on security and reconstruction;

  <bullet> Where we can go--according to a rather urgent timeline.
                           the last 12 months
    In many ways Afghanistan still lingers in a honeymoon period--where 
we are designing and building a new nation from a clean sheet of paper.
    In the immediate post-Taliban defeat in Afghanistan, there were no 
universities, no army, no police, no TV, no newspapers, no banking 
system, no judiciary, very little food and even less in the way of 
health care. The only thing in abundance: Guns and land mines.
    Looking back 12 months--we established a triage plan to urgently 
fill institutional vacuums. It began with the Bonn Agreement that 
provided the political road map and an interim administration to make a 
start. We then quickly moved to right the most egregious wrongs of the 
Taliban.

  <bullet> All women workers and students were immediately restored to 
        their pre-Taliban positions. Today, women constitute over 50% 
        of civil servants and teachers.

  <bullet> Some three million children have gone back to school.

  <bullet> His Majesty King Zahir Shah returned to Afghanistan after 
        almost three decades.

  <bullet> The Grand Decision Making Assembly known as the Loya Jirga 
        was convened and 1501 representatives from all over Afghanistan 
        participated. And a woman was a candidate for the Presidency.

  <bullet> Over two million refugees from outside and internally 
        displaced have gone back to their homes and villages.

  <bullet> Liberal investment laws were passed to attract foreign and 
        Afghan investors and free enterprise has re-gained a foothold.

  <bullet> All state enterprises have become subject to open bidding.

  <bullet> A neighborly conference was held in Kabul on the anniversary 
        of Bonn Conference to mark our neighbors' commitment to non-
        interference, good neighborliness and mutual respect. This has 
        resulted in the Kabul Declaration.

  <bullet> National Defense Council, National Security Council, Civil 
        Affairs Commission, Human Rights Commission, Constitutional 
        Commission and many other entities have been established to 
        speed up the work of the government.

  <bullet> A Constitutional Commission was established, drafting began, 
        and is now nearly completed. By the end of the year it will be 
        completed and ratified by another Loya Jirga.

  <bullet> And just like here in the United States, in 2004, we will 
        again hold free and fair general elections.

    Those were tangible acts of immediate need. There have also been 
needs to lay foundations for Cultural Reconstruction--the re-
establishment of a national sense of identity--and providing an 
education to the Afghan people--both of which are critical to ending 
factionalism of the sort that plagued Afghanistan in the aftermath of 
the Soviet defeat and withdrawal.
    You see, for over 20 years the Afghan people have endured two 
attempts at brain-washing. First by the brutal far-left extremes of 
communism. Then by the brutal far-right extremes of the Taliban's 
``Thug Theocracy.''
    Is it any wonder the brains of our young people are scrambled?
    For years, the moral compass of the nation has been spinning like a 
top.
    Today, we need to remind the adults of Afghanistan who they are, 
where they have been.
    And at the same time we are telling our children--that their entire 
lives, all that they have known for 20 years--is an aberration. That in 
the 21st Century--Open societies, freedom of thought, freedom of 
speech, freedom of commerce, freedom from want, fear and intimation--
are the models for Civil Society--and where the world is going.
    To that end:

  <bullet> Work urgently to restore our libraries, our museums, our 
        cultural monuments, and our national parks

  <bullet> We must also encourage the direction where the invisible 
        hand of freedom has already led us--the creation of free and 
        independent media. Indeed, there are already 150 new News 
        Organizations in Kabul, and Kabul Radio is now up 24 x 7 and 
        broadcasting to a national audience.

  <bullet> We are working hard to create a Judiciary System--that is 
        transparent, based on the rule of law and representative of the 
        entire nation. Our new Judiciary Commission and Commission on 
        Human Rights have been hard at work, and I am pleased to day 
        that 200 women Judges have been restored to the bench.

    I think we have made great progress. Here is the testimony of 
Robert Oakley, former U.S. Ambassador to Pakistan in a recent Op-ed 
from the Washington Post:

          ``Starting from zero a year ago, the administration of 
        President Hamid Karzai has achieved many attributes of a 
        responsible government.

  <bullet> It has a long-term national development framework and 
        budget, worked out with the World Bank, the United Nations, the 
        United States and other donors, and is carefully applying it to 
        ensure that donor proposals meet Afghan realities.

  <bullet> A central bank, fiscal discipline and a new national 
        currency have been established.

Construction of the large-scale ``ring road'' program has begun; large-
        scale community development projects will soon follow smaller 
        efforts.

  <bullet> An Afghan Defense Commission (including senior `warlords') 
        has reached agreement on the size, makeup and training of the 
        new army and the demobilization of local militias.''

    Ambassador Oakley goes on to say what I firmly believe:
    The key to this trend line continuing in a positive direction--is 
the continued presence and focused attention of the United States of 
America.
    The American effort has already been heroic, creative, and 
generous.
    Consider, just in recent months:

  <bullet> The Congress and Administration produced the $3.3 billion 
        Afghan Freedom Support Act;

  <bullet> Secretary Powell unveiled the Administration's U.S.-Middle 
        East Partnership Plan; and

  <bullet> The President dispatched a special delegation of American 
        women to Kabul under the auspices of U.S.-Afghan Women's 
        Council.

    But this trend line of attention and active support must continue 
into 2003.
    If it does--and I believe it will--the good news will continue and 
Afghanistan will become the first example in this new century and 
centuries to come--of what democracy can do for a struggling nation.
                         aid and reconstruction
    Last year began with $5 billion being pledged for the 
reconstruction of Afghanistan, including $1.8 billion for 2002, at the 
January 2002 Donor Conference in Tokyo. An additional $1.2 billion has 
been pledged for 2003. Although many major reconstruction projects had 
begun towards the end of the year, the majority of our population is 
living in poverty, below the pre-war 1976 levels in many cases.
    The Loya Jirga that was held last June helped to spur activity on a 
numbers of projects, including small scale initial recovery efforts, 
macro-reconstruction projects such as roads, energy and power, many of 
which were supported by funds channeled through UN agencies.
    But, as Nigel Fisher, the UN Secretary General's Deputy Special 
Representative for Reconstruction, noted:

          ``Tokyo pledges have largely been met, but the fundamental 
        problem is that those pledges fall far short of the level of 
        international assistance required to really kick-start 
        Afghanistan's recovery. In per capita terms, the assistance 
        provided to Afghanistan falls far short of aid provided for 
        recovery from other major crises--in the Balkans, East Timor or 
        Rwanda.''

    What's more, for the pledges that have not been met, checks are 
still in the mail, grants have been converted to loans, and many loans 
have become conditional or placed on hold.
    The softening of global commitments to rebuild Afghanistan makes 
the U.S. commitment--as declared in last fall's Afghanistan Freedom 
Support Act--all the more important.
    Our needs, living at the center of the ``Circle of Instability''--
remain most urgent and we require significant financial support.
    The landmark Afghanistan Freedom Support Act--that originated in 
this Committee provides a strategic framework for U.S. policy on the 
political and economic development of Afghanistan--to provide that 
support.

  <bullet> It protects and enhances the security of Afghanistan by 
        authorizing military and security assistance, and supports 
        counter-narcotics, crime control and police training activities 
        for our government.

  <bullet> The legislation also authorizes $1.7 billion in economic, 
        humanitarian and development assistance in Afghanistan.

  <bullet> Through the efforts of Members of this distinguished panel, 
        $300 million was provided for an Enterprise Fund to promote job 
        creation and private sector development, and another

  <bullet> $300 million in draw-down authority for military and other 
        security assistance is authorized.

  <bullet> The bill also provides a total of $1 billion to support 
        ISAF, if the President makes the necessary determinations.

    We respectfully urge the Congress, in this appropriations cycle to 
fully fund the Afghanistan Freedom Support Act.
    The Act created a template for reconstruction funding at not less 
than $450 million in fiscal year 2003. The need is urgent. Yet, the FY 
2003 Omnibus Budget looks like it will fall considerably short of the 
mark. I would urge you and your colleagues to bring the actual funding 
level up to the authorization mark so that funds can be deployed--not 
next year, but in the months ahead--to enhance education, improve 
health, especially for children, to strengthen our democratic 
institutions and to empower the women of Afghanistan.
    As you are aware, President Bush will meet President Karzai in 
Washington toward the end of the month for talks on postwar 
reconstruction. President Bush has indicated that he looks forward to 
discussing with President Karzai ``the progress being made toward our 
shared goals of rebuilding the country's society and economy, and 
securing a nation free from terror, war and want.'' We certainly are 
aware that President Bush has a great deal on his plate at this time. 
Thus, we are particularly grateful to him, to Secretary of State Powell 
and others in the Administration for their continued attention to 
Afghanistan and their commitment, in Secretary Powell's words, ``to 
create an Afghanistan where terrorists and traffickers can never again 
flourish.''
    And that leads me back to security--and the critical role of ISAF 
and its expansion to corners of Afghanistan.
    As you know, the transition to Dutch and German oversight of ISAF 
has gone smoothly. And going forward, we believe that this force, as it 
expands its mission beyond Kabul, will guarantee the long-term security 
of our entire country and make it possible for reconstruction efforts 
to succeed without terror or intimidation. Eventually--and I hope it 
will be sooner rather than later--we will establish, with the help of 
our allies, an effective military and police force to allow us to 
control our own destiny and our own affairs.
    I urge this Committee to continue to support the expansion of ISAF, 
and I hope the Administration will make every effort to press America's 
friends and allies to join in this effort. As you once remarked, 
Senator Biden, ``ISAF is the vital security blanket without which 
rebuilding efforts will be in grave jeopardy and the strength of the 
Central Government eroded and weakened.''
    Afghanistan internal security remains fragile. Recent outbursts of 
fighting--including air strikes yesterday against residual presence of 
Taliban and Al Qaeda forces reminds us of the specter of oppression and 
terrorism that was only too real 18 months ago.
    Non-interference from our regional neighbors is key. And the 
expansion of ISAF and the establishment of a national army will:

  <bullet> demonstrate international support for the central government

  <bullet> weaken the influence of regional leaders and their personal 
        armies

  <bullet> speed reconstruction and economic recovery

  <bullet> increase the confidence of private investors

  <bullet> will promote stability and our ability to form a national 
        army

    Afghan Army needs to be trained at a faster pace and bigger size. 
2000 men in one year are just not enough. Experts say that at least 
700,000 guns are unaccounted for and it takes a strong army not only to 
collect them but also to counter the warlords. And their rapid 
deployment along with U.S. forces would not only make them better 
soldiers but also amount to smaller number of casualties of U.S. armed 
services.
    The expansion of ISAF, is very good for all of the Afghan people--
who have known only war for the last generation.
    The expansion of ISAF--will also help finish the job of 
extinguishing all vestiges of the Taliban and Al Qaeda in Afghanistan--
so democracy has a chance--good for the Afghan people AND the global 
community.
    To that end--it is critical even in these times of global economic 
slow-down--that Afghanistan receive the promised security and financial 
assistance to help Afghanistan to recover, and rebuild.
    Clearly--all nations stand to benefit from all new elements of 
stability in the Middle East--from any source.
    Yes, Saddam Hussein is a very serious problem.
    I am heartened that America and the world community are determined 
to deal with that despot.
    And I pledge to you that Afghanistan will support whatever 
direction the U.S. and Allied nations take in dealing with Saddam 
Hussein--and winning another victory for democracy.
    But let us also secure the victories that we have already won.
    And the best way to secure our victory in Afghanistan is to secure 
democracy and build prosperity. And, the task of doing that centers 
squarely on the shoulders of the new government in Kabul and the 
international business community. And to no surprise, there is much to 
do.

  <bullet> We need to make a major commitment toward ``big 
        infrastructure development'' like rebuilding our roads--that 
        will bring jobs, and add to a national psychology of peace and 
        security.

  <bullet> Because 85% of the Afghan people are farmers, we need to 
        embark on a massive program to support new agricultural 
        initiatives--dams, irrigation canals and systems--that would 
        employ millions of Afghans. This, combined with an Alternate 
        Crop Substitution for poppy farmers, could curtail illicit drug 
        production tremendously.

  <bullet> There needs to be a gradual shift from short-term 
        humanitarian help to long-term sustainable development 
        projects.

  <bullet> We need reliable electric power.

  <bullet> We need to re-fill the hundreds of empty factories in our 
        cities with workers--making textiles, cement, and other 
        finished goods.

  <bullet> We need capacity building for the central authority means 
        attracting the Afghan Diaspora, particularly, from the U.S.. I 
        appeal to you to consider additional funding for their 
        provisional return back home to utilize their professional 
        skills.

  <bullet> We need to keep focused on Afghan's women--and the 
        establishment of centers for mothers and children in need--in 
        need of literacy, vocational training, and especially medical 
        care. And,

  <bullet> Money is needed to fight the campaign against narcotics, 
        production, processing and trafficking, including its nexus to 
        narco-mafia and cross-border instability.

    The Karzai government has organized with remarkable speed and 
transparency to organize and get on with the business of rebuilding. 
And we are making progress against a very long checklist. Here are 
highlights:

  <bullet> We have implemented a plan for efficient processing of 
        economic development assistance--housed in the Ministry of 
        Finance--under a program that would make the Director of 0MB 
        proud.

  <bullet> We have introduced our new national currency--the Afghani.

  <bullet> We have embarked upon a highway ``ring-road'' reconstruction 
        program to build arteries connecting a country the size of 
        Texas. Additional road building will begin with the arrival of 
        spring.

  <bullet> The Voice of America and the Afghan Information Ministry, 
        with $10 million from the Pentagon, are installing transmitters 
        to create a national radio network.

  <bullet> Also with America's help, through Transition Initiatives 
        funding in the amount of $6 million, we are empowering Afghan-
        run NGO's, particularly focusing on women's groups and 
        community development projects. We want to make sure that women 
        are full participants and full beneficiaries in the economic 
        growth that is part of Afghanistan's future.

    I believe that with the restoration of civil society and the rule 
of law--the international private business community will see a welcome 
mat for business and private investment. And in recent months, we have 
begun reaching out to the private business and financial communities--
with an invitation to come and do business.
    indeed--this is the mission I have personally embraced in my role 
as Ambassador. We have great wealth in our undeveloped natural 
resources in Afghanistan. But we also understand that international 
businesses will not invest and joint-venture with us until they see:

  <bullet> a safe environment,

  <bullet> the banishment of corruption,

  <bullet> adherence to commonly accepted business practices, and

  <bullet> re-establishment of reliable transportation and 
        telecommunications infrastructure.

    And with the generous support of international institutions and the 
U.S. we are working hard to bring these things to pass.
    We have the basic elements for building wealth in our nation.

  <bullet> We have Natural resources--and they need to be mapped and 
        thoughtfully developed;

  <bullet> We are located in a strategically important location in 
        Central Asia--much like Denver, there can be a logistics and 
        transportation industry in our future;

  <bullet> And we have an entrepreneurial tradition . . .

but these elements will never be organized and mustered--independent of 
peace and security--and the establishment of a civil society.

    Security and Economic Development--are the two rails of our track 
toward the future.
    Better security paves the way for businesses and investment.
    Businesses provide freedom with jobs, money for education and 
personal empowerment--and more opportunities for women.
    We know where we want to be--and here is part of our strategy--our 
business plan--to get there.
    I have helped to create the Private Sector Development Task Force 
for Afghanistan. It is a

  <bullet> Coalition of private companies, non-governmental 
        organizations and volunteer experts--dedicated to accelerating 
        the development of a private enterprise-driven market economy 
        in Afghanistan.

  <bullet> The primary goal of the Task Force is to promote capacity 
        building and institution building of the Afghan government and 
        strengthen infrastructure.

  <bullet> We are working with the Ministry of Justice to create laws 
        that will protect private investment.

  <bullet> We are setting up private banks.

  <bullet> We are working with the U.S. Geological Survey and private 
        energy companies to explore our natural resources.

  <bullet> We are bringing in the most recent and cost-effective 
        telecommunications technologies--and a new license for a new 
        wireless company was just recently let.

  <bullet> And later this year, we will host an international trade 
        show in Kabul and YOU--are hereby invited to attend.

    When you arrive, just tell them Ishaq sent you.
    It will be good for top accommodations--not 4 star . . . yet. But . 
. . one with relative luxuries--a beautiful carpet on the floor--and 
reliable electric power.
    In closing, I hope I have offered a useful assessment of where we 
are and where we hope to go.
    I must be candid--we are not there yet, by any means. And if the 
progress that we have made in the past year or so is to continue, we 
will need help--financial help, technical assistance, and a certain 
amount of patience.
    But I will say again, should not be viewed as altruism by the U.S. 
or world community. The returns to the U.S. and global security will be 
commensurate with the investment.
    And I will also tell you that President Karzai and I are 
passionately determined not to squander this moment in Afghanistan's 
4,000 year history.
    Afghanistan has had enough political revolutions.
    Afghanistan has been invaded and occupied by the armies of 
soldiers.
    What we need today is to be occupied by a new benevolent kind of 
army: an army of teachers, doctors, builders, farmers, civil engineers, 
merchants, bankers and public safety experts--and perhaps even a few 
lawyers.
    The goal here is a jump-start. Not a permanent occupying force. And 
many of you here in this room--are in many ways part of this benevolent 
army.
    We all need to make sure that the work undertaken on behalf of 
rebuilding Afghanistan is done in a manner which empowers the people of 
Afghanistan to take matters into their own hands.
    As the Afghan proverb says, ``A river is made drop by drop.'' Any 
great project, any important human undertaking, takes time and requires 
a long-term commitment. Clearly, the rebuilding of Afghanistan after 
more than 20 years of war and foreign occupation will take sustained 
effort and patience. And the timing is urgent.
    Afghans are also a remarkably resilient people and a proud people--
proud to learn; proud to do a good job.
    As Churchill wisely stated, ``Give us the tools and we will get the 
job done.''
    Thank you for your attention. I would be most happy to take your 
questions.

    The Chairman. Thank you very much, Ambassador. And I 
appreciate, as I think all members do, your programmatic 
suggestions at the last, the five suggestions.
    Let me ask, if I may, once again have a 7-minute round so 
that all members can participate. I will start the clock on my 
questions now.
    Ambassador, in addition to the specific suggestions that 
you made on the Freedom Support Act and ISAF, the construction 
activities through the President, the encouragement of many 
Afghans who are here in the United States to offer their 
talents, maybe their presence, you have made some profound 
statements in your testimony that I just want to underline. The 
thought that you will attempt to teach the children of 
Afghanistan something entirely different, maybe opposite, to 
all that has been taught for years is an extraordinary 
statement and, if possible, an extraordinary achievement. But 
then you have illustrated that already the learning curve is 
substantial. Your comment that 50 percent of the public 
servants in Afghanistan now are women, reflects a remarkable 
achievement in a very short period of time as you push uphill 
with regard to the learning curve of the whole country, given 
the doctrine that, as you have pointed out, was a part of the 
teaching of children and maybe some adults, too.
    I was struck by the comment that 25 percent of your 
population in fact as of the moment are refugees. In due 
course, each of these persons will be settled and will become 
less refugee and more Afghan all the time. That is a remarkable 
transition in itself simply in the population of the country, 
probably with more people on the way. But the assimilation of 
these 2 million people, or 25 percent of the population, is 
once again astonishing in this period of time.
    I thought it was profound that you said you were starting 
with a clean sheet of paper as you think about the governance 
of the country, maybe about the fundamental ideals, quite apart 
from the language of a constitutional framework that you are 
working with. That is important. Some nations have tried that 
and not done well. Things either lapsed back into an agenda 
that was already ingrained, or people could not be taught 
something new or move ahead.
    But nevertheless, up front as a representative of your 
country, representing your President, you said, that is our 
status. Now, you ask us to look at this not as a charitable 
offering, but as an investment in our security, our future, our 
interests and the rest of the world, by describing your country 
as a part of a crescent that brings together Asia and the 
Middle East, with Afghanistan right in the middle.
    This reinforces some of our questioning of the last panel, 
that this is not an Afghan specific situation. Your country is 
described by those who do try to think of a business plan for 
the country as a potential crossroads, in the event the 
transportation system would be enhanced, the infrastructure be 
built, a place in fact where a good number of countries could 
ship their goods and services, could in fact enrich not only 
your country but themselves, in a degree of international trade 
that the area has never seen because of safety reasons or 
simply lack of infrastructure.
    That gets to an important point. How will people in the 
country make a living? How can the gross national product and 
the individual incomes of persons increase? So that is a quest 
of some, but it is not a casual one. It almost once again has 
to be a crash program. The expectations of people as they 
discover the rest of the world or as they become a crossroads 
likewise escalate to a point well beyond that which you have 
experienced.
    So all of this I simply say as one who has listened 
carefully and I appreciate the thoughtfulness that accompanied 
the statement on behalf of your country.
    Now, my question normally would have been, OK, what can we 
do? Now, you have offered five things and these are reasonable. 
Even the ISAF augmentation to three times the 4,800, 4,900 
people would not appear in the whole scheme of things in the 
world to be an outrageous item. As a matter of fact whether 
1,500 people can cover a country as large as your own and 
provide the degree of safety--and Senator Biden has graphically 
described his own experiences in the country and others--I 
suppose is open to some question. But I will not quibble over 
that. It is a modest request, that we fund the authorization 
that we have already described.
    But I want to at least contemplate, just picking up again 
on my colleague's thought--really, the vision in terms of 
United States policy. What should be our goal? If we had this 
hypothetical conversation with the President of the United 
States that we have been talking about today--we are all 
addressing the President. He is not here today, but maybe he 
will be to visit with us some time. So as a result we are 
preparing for that conversation, and what we want the President 
to suggest, because only he can coordinate ultimately. Our 
State Department, the Defense Department, the security people, 
the Commerce people, the NGOs, the whole lot come and go from 
our contribution.
    We are going to have to reorganize, I think, our own 
thoughts about Afghanistan and how we respond to these 
challenges. But can you offer us some vision of that sort? You 
are not constrained by the fact that you are an employee of the 
Department of State or the Department of Defense or reporting 
to anybody except the President of Afghanistan. You are our 
guest today, at this open hearing in which we are inquiring of 
you what the vision ought to be or how we could better realize 
our own objectives for security in the area, which has been a 
vacuum for a long time.
    Can you respond at all to that inquiry?
    Ambassador Shahryar. Yes. Well, as a former businessman, 
Mr. Chairman, I believe that economic development will bring 
stability and security, and security brings stability, and 
stability brings democracy. So I suggest really an aggressive 
sort of Marshall Plan for Afghanistan's reconstruction. I think 
that is most important. The people of Afghanistan are expecting 
a great deal from the international forces, from the United 
States, to put them to work.
    The Chairman. Can you and your experts flesh out such a 
plan? I am not certain on our side we are able to for the 
moment. Maybe you could.
    Ambassador Shahryar. I think, as I had mentioned in my 
testimony, Afghanistan is very rich in terms of natural 
resources. It has oil, it has gas. There is already, I was told 
by the Minister of Mines and Industry who was here, there is 
already in the north that the former Soviet Union developed--it 
went up as far as about 1,000 meters down and found a lot of 
oil and gas, and that is capped up now. That is needed to be 
piped into Kabul, and that alone was worth about $7 billion.
    To develop that further and do that, it will put a lot of 
people to work. And also, investigate and map out the natural 
resources in the south. We believe there is tremendous 
resources of oil and gas in the south also.
    Afghanistan is very rich in terms of minerals. Afghanistan 
has the best copper, the best iron. It has coal. Afghanistan 
has tremendous resources of precious metals--emeralds, gold, 
lapis lazuli, and many others, all of that to be in a rapid 
case to be started up and developed.
    I think a reform in agriculture would help a great deal to 
put people back to work. Afghanistan always was an agroeconomy. 
I believe that immediate, the next 18 months before the 
election--the concerns, what happens in the elections of 
extremists or others take an advantage? I think if we can start 
an aggressive reform in terms of putting people to work and 
bring some visible, tangible, large-scale projects to 
Afghanistan such as the ``ring road.;;
    I believe that if we can put the Afghans to work--I believe 
the jobs should be given to Afghans, not to others to come and 
do the job for Afghanistan. I believe that there is hundreds, 
if not thousands, of factories that have been disabled during 
the war. I believe that those factories should be put back, 
rehabilitated, and get them started and put the Afghans to run 
them.
    I believe that the free enterprise economy should be 
started in Afghanistan and the private sector should be 
developed. I think the idea of yours of the Enterprise Fund 
would probably help jump-start all of these projects that we 
talk about.
    So I emphasize a tremendous jump-start and an aggressive 
economic reconstruction for Afghanistan. I think that will not 
only help to create jobs, it will demobilize the regional 
leaders, as we call them. It will probably put all the people 
to work and bring security faster to the country than any other 
means.
    The Chairman. I thank you very much. I thank you for 
mentioning the Enterprise Fund, which was really your idea that 
I put in the bill.
    Ambassador Shahryar. Thank you.
    The Chairman. The Enterprise Fund concept had good success 
in Poland, and it can be an effective way to help build an 
economy. You have an ambitious idea here for investment, and 
maybe most Americans do not realize the possibilities for oil, 
gas, diamonds, gems, minerals. But a lot of investment is 
required for extraction. Perhaps we can help you form the 
international partnership and attract the expertise that you 
will require.
    Senator Biden.
    Senator Biden. Thank you very much.
    Welcome, Mr. Ambassador.
    Ambassador Shahryar. Thank you.
    Senator Biden. One point I would make. Being an American 
citizen, having been an American citizen, you know that it 
would be helpful if you acknowledge the altruism of the 
American people. This idea of us not doing this for altruism--
my folks back home do not understand the other reasons. They 
think they are doing it to help. So the extent that you are 
grateful for what is being done is a useful thing, because they 
are not interested in helping any Islamic republic or State for 
any reason. So it is born out of some altruism and it would be 
nice if you occasionally acknowledge that, No. 1.
    But No. 2, let us take the gas and oil that you said should 
be--that is worth several billion dollars and, quote, ``piped 
into Kabul.'' When I last had--and I occasionally, as you know, 
have spoken to President Karzai, not only in person but on the 
phone to find out. Last time I--and this is a stale 
conversation, but let us take the practical problem of, 
assuming the economic investment is there to develop the gas 
and oil in the north.
    You have Dostum, you have General Atta, you have Fahim, who 
is, I know, Defense Minister, but has another little hat he 
wears, and you have Sayyaf, who is a very good friend of Mr. 
bin Laden's, all in the north, all competing for the affections 
and attention of the people in the north. Tell me how you 
think, no matter how much money got sent to the north, there 
would be a reasonable prospect of being able to safely begin to 
develop those oil reserves, which I strongly support us doing?
    The reason I ask the question, so you do not think I am 
attempting to ``mousetrap'' you here, as we say, is that 
President Karzai has always made the point to me: ``Unless I 
can secure the area first, there is no likelihood that the 
resources in the rest of my country are going to be the 
province of or under the control of the central government.'' 
Maybe you could speak to that question for me, specifically 
using the gas and oil as an example.
    Ambassador Shahryar. Well, Senator, your point is well 
taken. As I have indicated, No. 1 is the security of the 
region. ISAF is very, very important. Many businesses, oil 
companies or gas or other businesses, in the United States I 
talked to, they do not dare to go inside unless there is 
security. So my condition for developing all of that, to give 
an incentive to push up and jump-start the ISAF and increase 
the security of the country, while we can do all of that.
    Senator Biden. I think that is a very important point for 
you to continue to make, because the President makes it to me 
every time I see him. And I think it is a central and critical 
point in order to be able to give people who are reluctant, 
whether they are members of the administration, Members of 
Congress, leading business people in and out of the United 
States, in the region, and that is that there is a prescription 
here, but it all rests upon the idea that Afghanis as well as 
outside donor groups, as well as outside development 
initiatives can come in and feel they can operate without 
finding themselves in the crosshairs of these competing 
interests in the region, in whatever region we go into.
    So it is not merely--and that has been one of my primary 
arguments with the administration when they tell me, ``do not 
worry, there is basically calm and peace,'' quote unquote, in 
the region. And I am going to be very hardhearted about this 
for a moment to make a point. I am more concerned about the 
duct tape and the plastic that is being sold in the stores 
today in Washington, DC, and around the country than I am about 
making sure the human rights of the people of Afghanistan are 
returned, although I think I have demonstrated by my record I 
am very concerned about that.
    And so it is very difficult for us to convince the 
administration, at least the dominant view in the 
administration, and our colleagues--I should not say us. It is 
very difficult for me anyway to convince them that we in fact 
should be taking a greater risk by extending ourselves even 
more relative to Afghanistan, unless it can be demonstrated 
that there is a direct correlation between our failure to do 
that and the duct tape that is going up on people's windows 
here in the United States, or potentially.
    So to the extent that you can make the argument--because 
you are persuasive, you are a very successful businessman, you 
are an Afghani by birth and now an Afghani by choice in terms 
of a citizen, but you made your fortune here in the United 
States, you know how this place operates. To the extent that 
you are able to connect the dots for people like that, I think 
it would be very helpful. I think it would be a very helpful 
point.
    I know you are trying very hard to do that, but I want to 
reinforce the broad point you are making. When you talk about--
what is your impression--let me put it another way. The 
President of the United States, not Chairman Lugar or Joe Biden 
or Chuck Hagel or Paul Sarbanes, the President of the United 
States is the one what used the phrase ``Marshall Plan for 
Afghanistan.'' I do not recall any of us using that phrase, and 
the President used that word in talking to us privately and 
publicly as a nation, that we needed a Marshall Plan, and he 
sent Colin Powell to a donor's conference in Japan immediately 
after the fall of the Taliban or very close to thereafter, and 
a man who I have an inordinately high regard for, the No. 2 man 
at the State Department, Secretary Armitage, came back and he 
said that number for the next several years was about $10 
billion.
    I thought it was closer to $19 billion, but about $10 
billion. Now, from your perspective, from Mr. Karzai's 
perspective--and I realize you are in a tough spot because you 
are here and you know you have to convince the administration 
to stay the route, so you do not want to be publicly 
criticizing anybody--not that you necessarily would--because 
you are here, not with hat in hand, but with petition in 
pocket, and so it is kind of hard to, you know, to say some 
things.
    But to the extent you can with us, I would like to ask you, 
have we from your perspective met our specific commitment under 
the $10 billion umbrella that was--almost became the definition 
of a Marshall Plan by the President, which I do not think is a 
Marshall Plan. Have we met that commitment? And to what degree 
and with how much timeliness, have the other donor countries 
met their commitment? If they have met it, tell us they have. 
If they have not, why do you think they have not?
    Would you speak to that for us, please.
    Ambassador Shahryar. Yes. Senator, thank you.
    The United States has met its commitment. The United States 
I think--the country, as you know, went through war, 
destruction, and it was rubble for 23 years. Relatively 
speaking, tremendous progress has been made, and this is due to 
the help and commitment of the United States of America.
    We are grateful for that and the people of Afghanistan 
understand this, President Karzai understands it. I think we 
are extremely happy with the progress being made. But 
unfortunately other donor countries have not made that 
commitment yet. And Senator, if I knew the answer I would be 
doing something about it. I do not know it.
    Senator Biden. Is it your view that we have the ability--
and I am truly agnostic on this. I do not know the answer to 
this. Is it your view that we have the ability to impact on 
their keeping their commitment?
    Ambassador Shahryar. I believe so. I believe that if the 
administration and the Senate would persuade the donors why 
they have not met their obligations, I think they would 
probably do something about it.
    Senator Biden. Thank you very much.
    Ambassador Shahryar. And I like very much that effort that 
you do on behalf of Afghanistan. Thank you.
    The Chairman. Thank you, Senator Biden.
    Senator Coleman.
    Senator Coleman. Thank you. Thank you, Mr. Chairman.
    Mr. Ambassador, I thank you very, very much for being here. 
It is very clear that Afghanistan is just kind of on the tip of 
a precipice. Using your words, you have an opportunity to turn 
the nation from a past filled with war and oppression to a 
future focused on prosperity and democracy. Certainly the great 
challenge is to get there. You have recognized that 
relationship. I think it is a very critical relationship. You 
cannot have economic security without national security.
    Certainly we have talked today about a number of the 
challenges to get that national security. The distinguished 
ranking member before the earlier panel raised an issue about 
what has happened to the Taliban, where are they today. We have 
got some sense of, you know, they are on the run. I am 
interested in getting from you an assessment of, as we focus on 
this issue of national security, how are we doing? Have the 
Taliban, have they kind of melted back into the general 
populace and do we run the threat of them simply reappearing? 
Should there be any difficulties with the Karzai 
administration?
    Can you give me your best assessment of where we are at 
with the Taliban today?
    Ambassador Shahryar. Well, again, in 1 year again, I look 
at everything as relative. Relatively, tremendous progress is 
being made. And there are two types of Talibans, the moderate 
Talibans and then the Talibans of extremist Talibans. I believe 
that some of the moderate Talibans have been incorporated into 
the public and getting to become parts of the new Afghanistan, 
and hopefully that will be working and hopefully that will be a 
process of inclusion and to make them to become a better 
citizen and working toward building a nation.
    The extreme Talibans, I do not have enough statistics about 
it, but hopefully that most of them are eliminated. But there 
are a great deal or number of them are in the border States, as 
has been discussed before. I believe that a number of them are 
in Pakistan and they are still very active into causing 
problems within Afghanistan.
    I also believe that the Government of President Musharraf 
has been a courageous man joining the international community 
fighting against terrorism and Talibans and al-Qaedas, that 
needs to be helped to sort of root out the remainder of the 
Talibans and al-Qaedas in the borders between Afghanistan and 
Pakistan. And I think that is why, again, that we emphasize the 
increase of security and ISAF and that other part to sort of 
root out the rest of them within Afghanistan.
    Senator Coleman. Thank you very much, Mr. Ambassador.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Coleman.
    Senator Sarbanes.
    Senator Sarbanes. Mr. Ambassador, I join my colleagues in 
welcoming you before the committee and also to thank you for 
the fine work which you have been doing.
    It would be helpful, I think, if you would sketch out for 
us the steps ahead directed toward achieving political 
stability in Afghanistan. I gather there is a constitutional 
commission now at work and if you could set out for us how that 
is progressing, how and when the constitution will be put into 
place, and then what would follow from that as we look ahead 
over the next year or two, I think that would be a helpful 
entry for the record.
    Ambassador Shahryar. Yes. We are very grateful again to the 
United States for helping to build the infrastructure of 
Afghanistan, the capacity of the institutions, and developing a 
country to be a democratic Afghanistan. Based on that, 
President Karzai has appointed commissions on the constitution. 
There is a commission working on army and military forces and a 
commission working on judiciary and commissioners working on 
women's rights and commissions working on humanitarian, 
commissions are at work.
    The commission on constitution--I had the honor to be part 
of the Bonn conference--is based on the preliminary suggestions 
that were made in the Bonn conference and the constitution to 
follow that. The constitution is declaring a democratic 
Afghanistan, Afghanistan is for all Afghans, equal rights for 
men, women, freedom of religion, freedom of speech, freedom of 
press.
    Already, Mr. Senator, there is about 150 newspapers in 
Afghanistan, operating freely. There are many, many radio 
stations being installed around Afghanistan and talking very 
freely. There are women running for offices, women on the 
cabinet. So a great deal of the beginning, the birth of 
democracy, is taking place in Afghanistan.
    That constitution that to my understanding was to be, the 
draft was to be completed some time this month, but already it 
has been ahead of itself. The draft has been completed in 
October, and is being presented for discussing it and more 
evaluating it to come out with a final draft. And hopefully the 
final draft of the constitution would be ready for the election 
to be submitted and approved by the constituents.
    Senator Sarbanes. When do you expect that to happen?
    Ambassador Shahryar. Well, the next loya jirga election, 
general election, is set for June 2004.
    Senator Sarbanes. Will the constitution be adopted before 
or after the general election?
    Ambassador Shahryar. I think the constitution is going to 
be preliminarily looked at, but then it would be submitted to 
the election body for approval.
    Senator Sarbanes. Now let me ask you this question. Are the 
pressing needs which the population faces in Afghanistan being 
met at a sufficient rate that their outlook for the future is 
one of hope and optimism? Or are we falling short of responding 
quickly and openly enough, so that their attitude is lapsing 
into one of pessimism?
    Ambassador Shahryar. Well, I was in Kabul last year and the 
people that come from Afghanistan, they are telling me that the 
Afghanistan of today is an Afghanistan of hope, opportunities, 
and challenges. The people are very much hopeful. The people 
feel very good about what is happening. Eighty-five percent of 
Afghans are supporting the Karzai Government. Eighty-five 
percent of the people in Afghanistan are supporting democracy 
and freedom. They are sick and tired of fighting and wars and 
destruction.
    So there is a tremendous atmosphere of hope and opportunity 
among the people. And they all say that, we see the light in 
the tunnel. They are all very hopeful for a good future.
    But we need to aggressively create jobs and employment for 
them. There is still poverty in the country. People have no 
jobs. People have no place to stay. So I suggested the projects 
such as the ``ring road'' aggressively should be pursued and 
aggressively be put to action, and other jobs should be 
created, projects, to create many jobs.
    I think special funding for the agroeconomy should be 
allocated to start the agriculture. A lot of Afghans are 
farmers, and get them started on that.
    So that is what the people are very hopeful on. If we can 
be able to provide that, to put those people to work, I think 
it will go a long way.
    Senator Sarbanes. In the agricultural sector primarily. 
What about the housing----
    Ambassador Shahryar. Mostly agriculture, and others also.
    Senator Sarbanes. What about the housing issue? There was a 
story recently in the New York Times about that.
    Ambassador Shahryar. Well, absolutely the cities that I 
saw, Kabul is totally down to rubble. So I think the housing 
issue is a very important project and is taking place now. Many 
homes are being built. People are building homes, people are 
building roads in their neighborhoods. So the housing project 
has been started and needs to be aggressively moved forward.
    Senator Sarbanes. What are the projects that you would put 
at the top of the list that, if a renewed effort were to be 
made, should be moved forward quickly as a very visible 
demonstration to the Afghan people that this is really going to 
be a real departure from the past and a new start for 
Afghanistan?
    Ambassador Shahryar. Restoration of the disabled factories 
and businesses in Afghanistan that put a lot of people to work, 
No. 1. Building more roads and construction and building homes 
and highways are second or in the same category. Building 
airports and, most importantly, building the energy capacity. 
The electrical power plants were destroyed, need to be 
restored. So these kind of projects to put electricity and 
energy back, and communications and telecommunications, 
restoration of all these projects would be very much helpful to 
get things started.
    Senator Sarbanes. Well, good. Thank you very much, Mr. 
Ambassador, Mr. Chairman.
    The Chairman. Thank you very much, Senator Sarbanes.
    Senator Biden, do you have a final comment?
    Senator Biden. I just have one, not a comment, one closing 
question if I may.
    Mr. Ambassador, can you give us a sense of--I was going to 
say how confident; that is the wrong way to phrase it--your and 
President Karzai's most optimistic assessment of when he would 
be in a position to have a military that had some actual 
capacity, if need be, to secure anything from highways to 
gubernatorial provinces if need be, that he would have 
confidence in?
    How far out is that?
    Ambassador Shahryar. Well, it is very hard to quantify the 
timing of it. The process has been started and 2,000, 3,000 
armies or 10,000 up to, to my estimation if I am correct on 
that, has been a great deal of progress in the time it has been 
started.
    I think the problem that I was trying to find out, what is 
it to jump-start this and aggressively train them is 
recruitment. And earlier was mentioned that if you pay more; I 
think you will have probably more quality people come forward 
and take the job. So if that kind of allocation will be made 
for increasing their salaries, I think you will see more people 
volunteer to come.
    Senator Biden. One of the things that I will respectfully 
suggest that I found last year when I spent so much time with 
President Karzai, I asked him to do something and he initially 
thought that I was--that maybe it was a little bit too, I do 
not know, too precise. But his brother was with him, who is a 
Maryland citizen----
    Senator Sarbanes. And a constituent of mine.
    Senator Biden [continuing]. And a constituent, a Baltimore 
restaurant owner. And I remember him sitting in the room with 
us and turning to his brother and saying: ``This is a good 
idea; you ought to do this.'' And what I asked was 
specifically, not generally, what his most urgent need was. And 
he said--he gave me a general answer about administrative 
facilities, meaning buildings that you could occupy, 
electricity you could turn on.
    I said, can you be more precise, to make a point? And he 
then began to get down to specifics. A gentleman walked in who 
worked for the President--I mean worked for the executive, 
maybe not personally for the President--and he said, ``For 
example, I am going to lose the man who just brought in these 
papers for me because I cannot pay him and because he does not 
have what is the equivalent of a computer terminal or even an 
old typewriter.''
    And I met with the Minister of Women's Affairs, a woman, 
who said--I asked what she needed and she said, ``I need a 
desk.'' I mean, she was not being facetious. She needed a desk.
    So I came back and we talked about what that immediate need 
was and it was about--what was the actual number? Was it $20 
million? About $20 million that was needed just to keep the 
lights on, if you will. And literally, as we were talking the 
lights flickered on and off in the President's office.
    So I came back and I went to a guy I like dealing with very 
much because he gets things done. I went to the Assistant 
Secretary of State--the Deputy Secretary.
    Senator Sarbanes. Armitage.
    Senator Biden. Armitage.
    The Chairman. Deputy.
    Senator Biden. Deputy. And I said, this is what we need. 
And he said, ``Well, we do not have the money.'' I said, No, 
there is a thing in your Department where you have this fund 
that you can use. So he immediately released $20 million. I got 
a note and a call from the President saying it was 
transforming, it had immediate impact.
    The reason I bother to tell you that is this. To the extent 
that you can--and the President is coming to see us.
    The Chairman. Yes.
    Senator Biden. To the extent that you can advise him about 
what--not even asking for a specific amount, what specific 
things that are totally able to be digested by our colleagues, 
myself included, that are, to use American slang, ``bite-
sized,'' that would make a difference. Case in point?
    Ambassador Shahryar. I would say one case in point would 
be, ``bite-sized'' as you mention it, is that all the funding 
and all the money to be channeled through Karzai himself.
    Senator Biden. Well, see, that I totally agree with you on 
that. But that is a programmatic, that is a policy decision we 
have been having trouble getting the administration to sign on.
    Let me be more specific. The American people understand 
that, because we have told them, you have told them, everyone 
has told them, that very conservative elements of Islam, 
particularly Wahabi in origin, out of primarily Saudi Arabia, 
over the past years have built roughly 7,000 madrassas in parts 
of Afghanistan and in Pakistan. We spent some time, Dr. Blank 
and I spent some time, and got a very hard number and checked 
it out with your people at the department of education as well, 
whatever you exactly call it.
    You can build a school in Afghanistan that will house 
warmly and cleanly boys and girls, teach them reading, writing, 
arithmetic, and hire competent teachers, because you have this 
plethora of women qualified to teach--and by the way, the 50 
percent of the women in the bureaucracy, 50 percent of the 
bureaucracy are women, most of those are teachers and they are 
not employed. You are not paying them. There are no schools for 
them to go to. So it is a bit of an exaggeration on your part 
to talk. It shows intent. It shows that you are open to, that 
you are committed to a society that includes women. But they 
are not working.
    So we actually worked up some figures. It costs $20,000 to 
build from scratch and operate an Afghani school. I think you 
should be coming back to us and saying things like: Build us 
1,000 or 5,000 or 10,000 schools now and here is where I would 
build them. I promise you, as somebody who sat here for 30 
years, we can get you that money. We can get you that money, 
because it is virtually impossible for anybody, including the 
administration, to say ``no, we will not support that.''
    So the irony is the more you are able to, in addition to 
your macroeconomic requirements and fiscal requirements for the 
government and the country as a whole, to the extent that you 
can pinpoint for us, particularly as an American who 
understands what appeals to Americans' hearts, interests, and 
desires, I think we can be of some immediate help beyond what 
is already occurring, that in fact might have some cumulative 
impact on your ability to do what you are going to have to do, 
is show progress.
    The irony is the burden is on you to show progress. The 
irony is we are not giving, the world is not giving you all the 
tools you need to be able to demonstrate progress, and so you 
are going to be held accountable to a standard that we imposed 
but did not help apply.
    So that is unsolicited advice as your unpaid counsel. But I 
promise you----
    Ambassador Shahryar. Thank you.
    Senator Biden [continuing]. I promise you it is worth the 
effort. As they say, trust me. I may not know much about a 
little--about foreign policy. I have a little bit of knowledge 
of politics, and it would be a very useful thing, I suggest. 
Schools are a single example. I am not suggesting anything 
beyond that.
    You, you decide what those needs are. To the extent that 
the President can come giving illustrations to the American 
people and the administration, I think it may be helpful.
    Ambassador Shahryar. Thank you, Mr. Senator. The 50 percent 
I said, you are right, was intention.
    Senator Biden. Yes. I was not implying you were trying to 
mislead us. I was just trying to make the point.
    Ambassador Shahryar. But your point is well taken and I 
will be happy when I come with President Karzai to visit you, I 
will give you a shopping list for what is to be done. But you 
have to remember----
    Senator Biden. Well, again, I would be like my daughter, 
not my son. My daughter is smart enough to give a list she 
knows I can fulfill. So I would not overdo it, but I would come 
with some specifics.
    I really mean it, seriously. I think you will find you will 
get some help. Our friend Senator Coleman is an extremely 
qualified guy, new to this committee, new to the Senate. I will 
bet you a thousand dollars there is no way as mayor he could 
have known that. To build 1,000 schools at $20,000 a school, if 
he could do that in Minneapolis-St. Paul area he would have 
done it.
    So my point is this is doable, this is doable, and I think 
you might find you get some support.
    Ambassador Shahryar. We would be happy to do that. Thank 
you very much, Senator.
    The Chairman. Senator Coleman, do you have any comment 
about that?
    Senator Coleman. Former mayors understand the importance of 
doable, doable. Thank you, Mr. Chairman.
    The Chairman. I thank all Senators. Let me just mention 
that President Karzai will be with us on February 26, 
Wednesday, February 26. So we are looking forward to that.
    As you have observed, Senator Biden is a consultant in 
addition to a great United States Senator, and this process of 
a hearing today has turned into much more of a consultation, 
but that is constructive and we appreciate that.
    I would just add that, with the school idea, I would 
suspect there are many people in the United States that would 
perhaps give the money to dedicate a school.
    Ambassador Shahryar. Absolutely.
    Senator Biden. Absolutely.
    The Chairman. It is something that unites the people, and I 
think Senator Biden's political judgment is, as usual, 
impeccable with regard to that.
    Let me also mention to committee members that we will have 
the distinguished President of Ecuador, Lucio Gutierrez, with 
us this afternoon at 3 o'clock in S-116. So we look forward to 
this distinguished new leader in Latin America, an opportunity 
to visit privately with him.
    The hearing is adjourned.
    [Whereupon, at 12:40 p.m., the committee adjourned, to 
reconvene subject to the call of the Chair.]


</pre></body></html>
